<html>
<title> - AN ASSESSMENT OF FEDERAL FUNDING FOR PRIVATE RESEARCH AND DEVELOPMENT</title>
<body><pre>[Senate Hearing 109-349]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-349
 
 AN ASSESSMENT OF FEDERAL FUNDING FOR PRIVATE RESEARCH AND DEVELOPMENT

=======================================================================

                                HEARING

                               before the

                FEDERAL FINANCIAL MANAGEMENT, GOVERNMENT
                     INFORMATION, AND INTERNATIONAL
                         SECURITY SUBCOMMITTEE

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 26, 2005

                               __________



       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs



                    U.S. GOVERNMENT PRINTING OFFICE
21-826                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                   SUSAN M. COLLINS, Maine, Chairman
TED STEVENS, Alaska                  JOSEPH I. LIEBERMAN, Connecticut
GEORGE V. VOINOVICH, Ohio            CARL LEVIN, Michigan
NORM COLEMAN, Minnesota              DANIEL K. AKAKA, Hawaii
TOM COBURN, Oklahoma                 THOMAS R. CARPER, Delaware
LINCOLN D. CHAFEE, Rhode Island      MARK DAYTON, Minnesota
ROBERT F. BENNETT, Utah              FRANK LAUTENBERG, New Jersey
PETE V. DOMENICI, New Mexico         MARK PRYOR, Arkansas
JOHN W. WARNER, Virginia

           Michael D. Bopp, Staff Director and Chief Counsel
   Joyce A. Rechtschaffen, Minority Staff Director and Chief Counsel
                      Trina D. Tyrer, Chief Clerk


FEDERAL FINANCIAL MANAGEMENT, GOVERNMENT INFORMATION, AND INTERNATIONAL 
                         SECURITY SUBCOMMITTEE

                     TOM COBURN, Oklahoma, Chairman
TED STEVENS, Alaska                  THOMAS CARPER, Delaware
GEORGE V. VOINOVICH, Ohio            CARL LEVIN, Michigan
LINCOLN D. CHAFEE, Rhode Island      DANIEL K. AKAKA, Hawaii
ROBERT F. BENNETT, Utah              MARK DAYTON, Minnesota
PETE V. DOMENICI, New Mexico         FRANK LAUTENBERG, New Jersey
JOHN W. WARNER, Virginia             MARK PRYOR, Arkansas

                      Katy French, Staff Director
                   Sean Davis, Legislative Assistant
                 Sheila Murphy, Minority Staff Director
            John Kilvington, Minority Deputy Staff Director
                       Liz Scranton, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Coburn...............................................     1
    Senator Carper...............................................     2
    Senator Lieberman............................................    16
    Senator Levin................................................    19

                               WITNESSES
                         Thursday, May 26, 2005

Charles W. Wessner, Ph.D., Director of Technology and Innovation, 
  Board on Science, Technology and Economic Policy, The National 
  Academies......................................................     4
Robin Nazzaro, Director, Natural Resources and Environment Team, 
  Government Accountability Office...............................    10
Brian Riedl, Grover M. Hermann Fellow for Federal Budgetary 
  Affairs, The Heritage Foundation...............................    12

                     Alphabetical List of Witnesses

Nazzaro, Robin:
    Testimony....................................................    10
    Prepared statement...........................................    52
    Responses to Questions for the Record........................    63
Riedl, Brian:
    Testimony....................................................    12
    Prepared statement...........................................   104
    Responses to Questions for the Record........................   115
Wessner, Charles W., Ph.D.:
    Testimony....................................................     4
    Prepared statement with attachments..........................    37
    Responses to Questions for the Record........................   212

                                APPENDIX

``Advanced Technology Program, Inherent Factors in Selection 
  Process Could Limit Indentification of Similar Research,'' GAO/
  RCED-00-114....................................................    66
Copy submitted by Senator Coburn for the Record:
    Chart entitled ``$300 Billion in Revenue, $300 Million in 
      Federal Research Funding''.................................   118
    Chart entitled ``Venture Capital Funding Reaches $21 Billion 
      in 2004''..................................................   119
    Letter dated May 18, 2005, to Hon. Carlos Gutierrez, 
      Secretary, U.S. Department of Commerce, from Senator Coburn   120
    Letter dated May 24, 2005, to Hon. Carlos Gutierrez, 
      Secretary, U.S. Department of Commerce, from Senator Coburn   122
    ``Department of Commerce: Discretionary Proposal Advanced 
      Technology Program (ATP)''.................................   125
    ``OMB Program Assessment Rating Tool (PART)''................   126
    ``Federal Grants to Advanced Cell Technology, Inc.''.........   135
    ``Measuring Performance, The Advanced Program and Private-
      Sector Funding,'' GAO/RCED-96-47...........................   136
Copy submitted by Senator Levin for the Record:
    ATP Response to Senator Levin's Inquiry, May 2005, ``ATP: 
      Delivering Results''.......................................   180
    Letter dated May 20, 2005, to Senators Carper and Levin from 
      Dr. Peter Fiske, Co-founder--RAPT Industries, Inc..........   183
    Letter dated April 27, 2005, to Hon. Senator Paul Sarbanes, 
      from Jeff Serfass, Executive Director, U.S. Advanced 
      Ceramics Association.......................................   185
    Letter dated May 26, 2005, to Senator Levin from Kenneth R. 
      Baker, President and CEO, ALTARUM..........................   186
    Letter dated May 25, 2005, to Senator Levin from Dwight 
      Carlson, Chairman, CEO, Coherix, Inc.......................   187
    Letter dated May 29, 2005, to Senator Levin from James Chew, 
      Chief Strategy Officer, TJ Technologies, Inc...............   189
    Letter dated May 27, 2005, to Senator Levin from Thomas A. 
      Cellucci, Zyvex............................................   190
    Letter dated May 26, 2005, to Senator Levin from Fawwaz T. 
      Ulaby, Vice President for Research, The University of 
      Michigan...................................................   192
    Letter dated May 2, 2005, to Frank Wolf, Chairman, 
      Subcommittee on Science, State, Justice, Commerce and 
      Related Agencies, House Committee on Appropriations, from 
      numerous undersigned constiuents...........................   193
    ``Core Findings and Recommendations,'' The Natural Academics 
      Committee on Government-Industry Partnerships..............   201


 AN ASSESSMENT OF FEDERAL FUNDING FOR PRIVATE RESEARCH AND DEVELOPMENT

                              ----------                              


                         THURSDAY, MAY 26, 2005

                                       U.S. Senate,
            Subcommittee on Federal Financial Management,  
        Government Information, and International Security,
                          of the Committee on Homeland Security    
                                        and Governmental Affairs,  
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:37 p.m., in 
room SD-562, Dirksen Senate Office Building, Hon. Tom Coburn, 
Chairman of the Subcommittee, presiding.
    Present: Senators Coburn, Carper, Levin, and Lieberman.
    Chairman Coburn. The Subcommittee will come to order. I 
thank each of you for attending.

              OPENING STATEMENT OF SENATOR COBURN

    Senator Coburn. Last year, venture capitalists in this 
country, through the private sector, invested over $20 billion 
in various projects in the United States. The Federal 
Government outside the ATP program invested over $50 billion in 
research.
    The hearing today is not to say that there are not some 
good things that come out of every government program, but is 
to assess the relative dollar contribution versus the benefit 
of the programs that we are investing in.
    I think one of the things that every American can agree on 
is that having a deficit each year, and I would preface that 
the last time we had a real surplus in our country was 1973. 
All you have to do is look at the national debt to assess 
whether or not that is a true statement because it rose in each 
of those years.
    The fact is this year it will be over $620 billion. The 
only thing that lasts longer than life are government programs. 
The purpose of this hearing today is to take a good hard look 
at one of those particular programs that has been recommended 
for elimination through President Bush's budget recommendation, 
and assess and evaluate the quality, the impact and the 
potential future impact and cost benefit for that program.
    With that in mind, I will ask for unanimous consent that my 
entire opening statement be made a part of the record and I 
would introduce to you our Ranking Member, Senator Carper and 
ask for his opening statement.
    [The prepared statement of Senator Coburn follows:]

              PREPARED OPENING STATEMENT OF SENATOR COBURN

    Last year, venture capitalists invested over $20 billion into 
various projects in the U.S. economy. Industries including 
biotechnology, telecommunications, and health care services received 
hundreds of millions, if not billions, of dollars in funding from 
private investors. All of that venture capital funding also doesn't 
even take into account the massive amount of money spent each year on 
research and development, or R&D, by publicly-traded American 
companies. Just to give a few examples, IBM in 2004 spent more than $5 
billion on R&D, while Motorola spent more than $3 billion on R&D. In 
short, the private sector of the U.S. economy is researching new 
technologies and products at a feverish pace.
    This hearing today has been convened to provide an assessment of 
Federal funding for private research and development, with a focus on 
the Advanced Technology Program, or ATP. Created in 1988 by the Omnibus 
Trade and Competitiveness Act, ATP is a Federal program charged to 
support research that accelerates the development of high-risk 
technologies in order to increase the global competitiveness of 
American industry. On its web site, ATP states that its goal is to help 
companies meet challenges that ``they could not or would not do 
alone.'' Many of the program's most vocal supporters believe that 
without the Federal funding provided by ATP, countless research 
projects would receive no money at all, and that ATP exists to remedy 
the failure of the market to fund research and development.
    Evidence to support those claims, however, is quite limited. Time 
after time, ATP is shown to fund initiatives that have already been 
undertaken by the private sector. Year after year, multi-billion dollar 
corporations receive millions of dollars from ATP. For example, General 
Electric, or GE, one of the most widely known corporate brands in the 
world, has received more than $100 million in grants from ATP. Last 
year alone, GE reported revenues of $152 billion. IBM, with revenues of 
nearly $100 billion in 2004, has received $91 million in Federal funds 
from ATP. In total since 1990, Fortune 500 corporations have received 
more than $730 million from ATP. If this does not constitute corporate 
welfare, then corporate welfare does not exist.
    Regarding the claim that ATP primarily funds research that does not 
already exist in the private sector, the U.S. Government Accountability 
Office (GAO), found in a 2000 report that ATP had funded research on 
handwriting recognition that began in the private sector in the late 
1950s. GAO found that inherent factors within ATP made it ``unlikely 
that ATP can avoid funding research already being pursued by the 
private sector in the same time period.'' Furthermore, according to the 
Program Assessment and Rating Tool used by the Office of Management and 
Budget, ATP does not address a specific need and is not designed to 
make a unique contribution.
    While many supporters of ATP point to the broad societal benefits 
of scientific research as justification for ATP, the merits of 
scientific research are not at issue here today. As a physician, I know 
first-hand the benefits that have been realized due to breakthroughs in 
the field of medical research. The main issues before us today are the 
Federal financing of research that may very well be duplicative and the 
Federal subsidization of multi-billion dollar global corporations.
    We are pleased to have with us here today distinguished scholars 
from the Government Accountability Office, the Heritage Foundation, and 
the National Academies. On our first and only panel, Robin Nazzaro, 
Brian Reidl, and Dr. Charles Wessner will give us their assessments of 
Federal funding of private research and development.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. How is that for timing. It is not always 
that good.
    I just left about 50 screaming kids from Cab Calloway 
School in Delaware in my office, saying do not go to that 
hearing, stay here and take our questions. I thought I would 
come here and ask some questions of my own.
    To our witnesses today, welcome and thanks for joining us.
    I think this is my fifth hearing today and I think it is 
the last one.
    Senator Coburn. You were not in a 5-hour markup for 
asbestos.
    Senator Carper. How did that go?
    Senator Coburn. It is going to the floor.
    Senator Carper. That is exciting.
    I have actually quite a long statement here and rather than 
go through it, if I could, let me just ask unanimous consent to 
enter it for the record and we will just get right to these 
witnesses and get this show on the road. Thank you.
    Senator Coburn. Without objection.
    [The prepared statement of Senator Carper follows:]

              PREPARED OPENING STATEMENT OF SENATOR CARPER

    Thank you, Mr. Chairman. I appreciate the dedication you've shown 
so far in using this subcommittee to closely examine programs--even 
very popular ones--to make sure that the taxpayer dollars we dedicate 
to them are spent wisely and are getting results.
    There's probably room for improvement in every program. I'm sure 
the Advanced Technology Program is no exception. I think it's clear, 
however, that ATP has been a success. I think it's also clear that ATP 
and programs like it should be seen as an integral part of our nation's 
economic policy, especially in times like these with U.S. industry 
under so much pressure from overseas competition.
    A recent assessment of ATP conducted by the National Academies 
shows that the program is achieving the goals Congress set out for it 
when it was created back in the late 1980s. According to the panel's 
findings, ``The ATP emphasizes economic growth and advances the 
competitiveness of U.S. firms by fostering technologies with 
potentially large net social value that might not otherwise emerge in 
time to maximize their competitive value.''
    I know there are some critics of ATP who would disagree with this 
assessment. I believe GAO will testify today that flaws in the 
program's application review process may lead to the funding of 
research projects that duplicate work already being done in the private 
sector without ATP assistance. There have been others who've criticized 
ATP for giving too much assistance to large companies or concentrating 
it in a handful of states. Others say ATP simply isn't needed and that 
much of the work it funds would happen with or without its help. I 
think some of this criticism misses the point.
    Data collected by ATP's Economic Assessment Office shows the 
projects funded under the program have had a real economic impact 
across the country. ATP has funded projects in 40 states across the 
country, plus the District of Columbia. The vast majority of these 
projects were led by small businesses.
    The Economic Assessment Office was able to analyze the impact a few 
dozen ATP-funded projects more closely and learned that they provided 
American taxpayers a return on investment of some $17 billion. When you 
consider that ATP has only distributed about $2 billion in grants since 
it's founding I'd say that's an example of remarkable success.
    In simple terms, I think ATP's mission is to find good ideas and 
help turn those ideas into something that can benefit our economy. It 
shouldn't matter where those ideas come from. And I don't know that it 
would ever be possible to guarantee that a company receiving an ATP 
grant would never be able to get funding for their project through some 
other means.
    It's clear to me that there are some good ideas out there that 
private venture capital firms probably won't touch. If those ideas have 
merit, I think the Federal Government, through ATP or some other means, 
should try to help them along.
    ATP has probably made some bad funding decisions in the past, Mr. 
Chairman, and I'm sure they'd acknowledge that themselves. They'll 
probably make more in the future. That's the nature of what they do--
some research projects bear fruit, others don't. But the program is 
making an impact in a number of ways. The Economic Assessment Office 
found that ATP grants in most cases help bring products to market 
faster. Grant recipients are able to obtain more patents and hire more 
people. Growth for small firms that receive ATP funds is apparently 
quite dramatic. Fifty-nine small firms surveyed by the Economic 
Assessment Office doubled in size after receiving ATP grants. A handful 
of others grew even more.
    Mr. Chairman, I'll close with this. Just over 6 years ago now, when 
I was serving as Governor of Delaware, I asked the General Assembly for 
$15 million to start up the Delaware Biotechnology Institute. What we 
were seeking to do was to create a partnership involving the State 
Government, the academic community, and the private sector--a 
partnership that would put Delaware at the forefront of research, 
development and the commercialization of new life science products. We 
also sought to work with our partners to create and retain quality jobs 
and help our State better compete with our neighbors and with other 
States in the biotechnology field.
    I also worked as Governor to help create the Delaware Technology 
Park--a partnership between the State, the University of Delaware and 
the private sector that gives technology companies--both small and 
large, some of them start-ups--a place to grow their businesses.
    I'm proud to say that the Delaware Biotechnology Institute and the 
Delaware Technology Park are still working to keep jobs in my State and 
make it a place where companies and researchers involved in science and 
technology want to come to do business.
    I think these snapshots of what's happening in one small State in 
the economic development arena show the kind of good that government 
intervention like ATP can do--and are doing. When I was Governor, I 
thought a major part of my job was to help grow our economy and attract 
quality, well-paying jobs. I think ATP does similar work for our Nation 
as a whole.
    Thank you again, Mr. Chairman. I look forward to hearing from our 
witnesses and to discuss ATP's work further.

    Senator Coburn. We are going to have one panel today, so I 
would like to introduce our panel of witnesses. Robin Nazzaro 
has been with GAO since 1979, has a wealth of audit experience, 
as well as an incredibly diverse array of issue expertise. For 
several years she worked on tax and financial management issues 
and later in the area of information technology.
    Most recently, Ms. Nazzaro oversaw GAO's work on federally 
funded research and development, including responsibility for 
research into the National Institute of Technology and the 
National Science Foundation.
    Also here today is Brian Riedl, who currently serves as 
Grover M. Hermann Fellow for Federal Budgetary Affairs at the 
Heritage Foundation. Mr. Riedl's research has been featured in 
the New York Times, the Wall Street Journal, the Washington 
Post, a myriad of other publications.
    Before coming to Washington, Mr. Riedl worked as a policy 
analyst for Governor Tommy Thompson of Wisconsin.
    Our first witness to present today is Dr. Charles Wessner, 
esteemed Director of the National Research Council. He has a 
long history of public service, having worked for the 
Department of Treasury, the U.S. Diplomatic Corps, the 
Organization of Economic Cooperation and Development (OECD), in 
Europe. Dr. Wessner currently works as Director for Technology 
and Innovation at the National Academies.
    In the interest of time, your full statements will be made 
a part of the record and I would ask that you try to limit your 
testimony to 5 minutes and we will give you a chance to offer 
additional comments as we start the questions back and forth.
    Dr. Wessner, if you would please begin.

    TESTIMONY OF CHARLES W. WESSNER, PH.D.,\1\ DIRECTOR FOR 
  TECHNOLOGY AND INNOVATION, BOARD ON SCIENCE, TECHNOLOGY AND 
            ECONOMIC POLICY, THE NATIONAL ACADEMIES

    Dr. Wessner. Thank you very much, Senator. It is an honor 
to be here to speak before you both. And I would like very much 
to welcome your suggestion that we take a hard look at the 
program.
---------------------------------------------------------------------------
    \1\ The prepared statement of Dr. Wessner with an attachment 
appears in the Appendix on page 37.
---------------------------------------------------------------------------
    Indeed, at the National Academies, one of the things that 
we specialize in is advising the Congress with hard looks at 
programs. A hard, that is to say, objective look is our goal.
    My goal specifically today is to talk to you briefly about 
what the Advanced Technology Program (ATP) is, what it is not, 
and why it is important to continue supporting what we have 
found to be an innovative and effective program. In the course 
of that discussion, Senator, I would hope we would have the 
opportunity also to explore some of the myths and realities 
about innovation in the United States.
    Let me say first off that the National Academies' 
assessment of ATP was conducted under the leadership of Gordon 
Moore of Intel. It found that the ATP is meeting its mission 
goals. In short, we found after careful analysis that the 
program contributes to our Nation's innovation, economic growth 
and national security.
    The good news is that ATP investments are already yielding 
high returns. Innovative technologies for knee repair and early 
breast cancer detection enable more productive lives and can 
lower medical cost. ATP has also helped to fund work on 
supporting U.S. manufacturing, such as printed wiring boards, 
and supported promising new technologies ranging from fuel 
cells to DNA diagnostics that will potentially revolutionize 
drug discovery.
    There are a lot of common questions about ATP, and let me 
go to some of them. Let me first quote a promising young 
entrepreneur in Silicon Valley. She was asked why the 
government should fund the development of enabling 
technologies. And since you can read faster than I can talk, I 
thought I might just let you take a look at Elizabeth Downing's 
point. Elizabeth Downing, 3D Technology Laboratoris, NRC 
Report, states on page 65, ``Why should the government fund the 
development of enabling technologies? Because enabling 
technologies have the potential to bring enormous benefits to 
society as a whole. Yet private investors will not adequately 
support the development of these technologies because profits 
are too uncertain or too distant.''
    We all recognize the potential of new innovative 
technologies. The problem is that private investors cannot 
adequately support them, and for good reason. One of the things 
that troubles me is people often refer to this as just a 
government program, picking winners and losers. The point is 
that the program is industry driven. Unlike many research 
programs in the Federal Government, the projects have to be 
proposed by industry, they are directed and carried out by 
industry, they are funded by industry on a cost-shared basis. 
This is why the program was adopted on a bipartisan basis when 
it was established. The awards often serve a catalytic 
function, bringing together partners from large companies and 
from small companies as well as universities.
    The bulk of the ATP awards, nearly 70 percent, go to small 
businesses. Why is that important? Because small business 
drives innovation, employment and growth in the U.S. economy.
    Does the program work well? Yes, it does. How do we know 
this? We know this because the ATP program, ironically, is the 
most intensively studied, rigorously scrutinized, and carefully 
assessed of any of the U.S. technology programs over the past 
50 years. By itself, the National Academies' review consumed 2 
years, three major meetings, two major reports and numerous 
detailed studies led by a 15-person steering committee chaired 
by Gordon Moore. It involved leading economists and wide 
consultations with the venture community, corporations, small 
companies, and government officials.
    Why do I tell you that? Because the conclusions that we 
reach here today about the program were done laboriously, 
carefully and according to the highest standards of the 
Academy.
    One of the things I would like to draw to your attention is 
a common myth. Many in the policy world believe that because we 
have a robust venture capital market, VC finance alone is the 
solution to many of the challenges of early-stage finance.
    But I think what you may realize is that, as Congressman 
Verne Ehlers pointed out years ago, there is actually a valley 
death where it is very difficult to take the ideas from 
federally funded research and take them across the valley to 
the promised land, as it were, of product development, 
innovation and commercialization. These problems are especially 
severe for risky but promising new technologies.
    One of the things to recognize are the limitations of 
venture capital. Basically, venture capitalists are not focused 
on early-stage finance. This is not a failing. They are not 
supposed to be focused on early-stage finance. The venture 
capital goal is not to develop the U.S. economy in the 
abstract. The goal of venture capital funds is to have a return 
on the funds that are given to them by their investors. If you 
look at this pie chart,\1\ you can see that the seed funding 
available is actually quite small.
---------------------------------------------------------------------------
    \1\ The pie chart entitled ``Large U.S. Venture Capital Market is 
Not Focused on Early-Stage Firms,'' submitted by Dr. Wessner appears in 
the Appendix on page 41.
---------------------------------------------------------------------------
    I would like to quote a member of our board, David 
Morgenthaler, who is one of the past presidents of the National 
Venture Capital Association. David Morgenthaler, Morgenthaler 
Ventures, NRC Report, on page 66 states, ``[The ATP] is an 
excellent program for developing enabling, or platform, 
technologies, which can have broad applications but are long-
term, risky investments.''
    ``Venture capitalists are not going to fund these 
opportunities, because they will feel that they are at too 
early a stage of maturity. Government can and should fund these 
technologies. In fact, it should do more than it is doing.''
    What he points out there again is simply that the program 
is an excellent program. It is one that has proven itself, and 
it is one that venture capitalists endorse.
    There is also another myth about the program. Some still 
ask ``would not private capital support an ATP project 
anyhow?'' The short answer is ``usually not.'' Why? Because the 
type of projects that ATP invests in are usually too risky, the 
technology often requires competencies that are not controlled 
by one firm, or the cost is simply too high. These are the very 
factors that the program addresses. Our research supports this 
view.
    Looking at 1998 ATP applicants one year after, NRC 
researchers found most of the non-winners had not proceeded 
with their research.
    I realize that my time is short here but I would like to 
emphasize that we are not alone. There are a variety of 
programs around the world like ATP. One of the analogies that I 
like is that I am not sure I would actually favor the Air Force 
in the abstract, sir. But if other countries have an Air Force, 
I think it is a jolly good idea that we have one, too, and that 
it be the best.
    The list below describes some of the Chinese programs in 
the semiconducter sector.
    There is the related problem with some of the programs. 
When they garner share in leading technology industries, even 
if what they did to get them is illegal, they still keep that 
position.
    But they are not alone in having extensive programs. Look 
at some of the smaller countries: TEKES in Finland, a country 
of 5 million people, has a program very similar to ATP. It is 
funded at $540 million for a country of 5 million people. In 
Belgium, a nation of 10 million people, they have a consortium 
for microelectronics research called IMEC that has budgeted 
$157 million. The EU has a 5-year Framework programme at $22 
billion, and they are planning to double that. Taiwan, where I 
just visited as an adviser to the prime minister, has the 
Industrial Research Institute which is funded at over $500 
million.
    I do not want to abuse my time here, sir, but I think it is 
very important to understand that first we have a sunken cost 
of $132 billion in research each year that we need to 
capitalize on, and ATP helps us do that. We need to understand 
the inherent challenges of early-stage finance and the 
limitations of venture capital, both in terms of when they 
invest in the development cycle and what they will invest in.
    In a global economy, as I have pointed out, there are large 
programs, many large well-funded programs, that are successful 
in what they are trying to do.
    We should also keep in mind historically that the U.S. 
Government has long played a major role in developing the U.S. 
economy. There was a period when we did not, Senator, from 
about 1792 to 1798. Since then the government has helped to 
develop many technolgies from interchangeable parts for muskets 
to the telegraph. I am very proud of what the Congress did in 
1842 when it gave Samuel Morse a $30,000 grant, a huge sum at 
that time, to prove this complicated idea that you could 
actually transmit signals and messages down electric wires.
    Examples also include aircraft frames, turbines, and radio, 
nuclear energy, computers, semiconductors, the internet, and 
the genome.
    Senator Coburn. Dr. Wessner, could you try to sum up?
    Dr. Wessner. Thank you, sir, because I am just reaching my 
conclusion.
    I would lastly like to recall that these contributions to 
our economy are central elements in our national security. ATP 
has made significant contributions to our national security, to 
homeland security. They have developed an x-ray technology that 
lets you see what is inside containers. This is very useful for 
national security, very useful for border security.
    So in sum, sir, I would like to give you the final 
conclusion from the NRC report. I think again you can read this 
more quickly than I can state. But my point is that we gave a 
very careful assessment.
    And I would like to stress, in closing, that someone 
described me as a friendly witness. No sir, we are not, at the 
Academy, a friendly witness. We are an objective witness. After 
careful analysis, we found that the program works and that it 
achieves its objectives, and we would hope that you would 
continue to fund this well managed, effective innovation 
program.
    Thank you, sir.
    Senator Coburn. Thank you, Dr. Wessner.
    I would welcome our other Member, Senator Levin. If you 
would care to make an opening statement now or you would care 
to defer, it is your privilege, sir.
    Senator Levin. Thank you very much, Mr. Chairman, for your 
graciousness. And I think I will make a short opening at the 
beginning of my questions. But I would like to submit my entire 
prepared statement at this time.
    [The prepared statement of Senator Levin follows:]

              PREPARED OPENING STATEMENT OF SENATOR LEVIN

    America's tradition of pursing government policies that stimulate 
economic growth, create jobs, and establish self-sufficiency in 
industries critical to national defense dates back to the founding of 
our Republic. One of our most forward thinking and prolific founding 
fathers, Alexander Hamilton, not only created the Nation's banking 
system and laid the foundations for the stock exchange, but he urged a 
Federal role in developing the U.S. economy.
    Alexander Hamilton understood that the wealth and strength of a 
nation is founded on its ability to innovate, create and manufacture 
new and useful products. Although much has changed since the early days 
of the Republic, this basic premise continues to hold true.
    Today, American manufacturers and businesses face unprecedented 
foreign competition. Cheap imports from low-wage nations with weak 
labor and environmental standards put pressure on American 
manufacturers to shutter their facilities and move offshore to remain 
competitive. According to the Bureau of Labor Statistics, nationally we 
have lost nearly 2.8 million manufacturing jobs since January 2001.
    As a nation, we can't compete with low wages and weak environmental 
standards. Instead we should compete with cutting edge research and 
advanced technology. Indeed, America's strength is our intellectual, 
inventive and creative capacity and our ability to constantly innovate 
through technological developments to increase productivity. Public-
private partnerships and collaboration have been a critical part of 
that process, increasing investment in R&D, leveraging dollars and 
resulting in overall benefits to the economy and society.
    Manufacturers' investment in innovation accounts for almost two-
thirds of all private-sector research and development; this investment 
in turn leads to advances in other manufacturing sectors and spillover 
into non-manufacturing activities in the United States. We should be 
doing all we can to promote programs that help create jobs and 
strengthen the technological innovation of American companies.
    The Advanced Technology Program (ATP) administered by the 
Department of Commerce's National Institute of Standards and Technology 
is one of the few Federal programs available to help American 
manufacturers remain competitive in the global economy. In particular, 
ATP helps improve manufacturing efficiency and competitiveness which 
lead to growth in productivity. ATP is a bipartisan program that was 
established under the Reagan Administration and funded under President 
George H.W. Bush's Administration, which recommended significant 
increases in the program in its FY 1993 budget. This high octane 
economic development engine should be supported by Democrats and 
Republicans alike.
    The ATP was created in part to ensure that the U.S. economy 
benefited from Federal R&D investment through partnerships. ATP bridges 
the gap between the research lab and the marketplace by providing cost-
share funding in high-risk R&D with broad commercial and societal 
benefits that would probably not be undertaken by the private sector 
because the risk is too great or because rewards to the private company 
would be insufficient to make it worth the investment.
    Less than 1.5 percent of venture funding is available for proof-of-
concept (seed funding) and early product development. It has been said 
that the ATP facilitates so called ``Valley of Death'' projects that 
private capital markets are unable to fund. The Valley of Death is the 
gap between research and commercialization. As one small high-tech 
start-up participating in the ATP put it:

        ``Technology commercialization is HARD. It is also CRITICAL to 
        the growth and economic competitiveness of the United States. 
        For those of us out here in the trenches, the ATP is a vital 
        source of support. ATP is unique in that it specifically 
        focuses on helping bridge the chasm from the lab to the 
        marketplace.''

    These investments promote the development of new, innovative 
products that are made and developed in the United States, helping 
American companies compete against their foreign competitors and 
contribute to the growth of the U.S. economy. For example, some of the 
technologies in which ATP was an early investor include DNA diagnostics 
for medical devices and nanotechnology.
    ATP was also an early investor in nanotechnology research. 
Nanotechnology has the potential to revolutionize almost every aspect 
of our lives--from smaller and faster computers, to miniaturized 
medical devices, to highly sensitive detectors to detect chemical and 
biological warfare agents. Unlike some of the more traditional research 
investments in nanotechnology--the ATP program is structured to ensure 
significant industry investment--which helps the commercialization of 
this high risk technology.
    An example of this is the work being done with ISSYS, a small 
company in Ypsilanti, Michigan, on the development of a portable 
multidrug infusion system. The need for multidrug infusion has not been 
met by existing infusion pumps because of their size, weight, and power 
consumption. Many diseases require multiple drugs to be administered 
with high accuracy. Cancer treated with chemotherapy and infectious 
diseases treated with drug ``cocktails'' are two examples of disease 
areas needing multiple drugs delivered in accord with a strict regimen. 
Programs like ATP that are supporting the commercialization of 
nanotechnologies will ensure that the U.S. retains its position as the 
world leader in this critical technology area.
    ATP is also playing an important role in developing new energy and 
power technologies that will improve our ability to generate and 
distribute power efficiently and effectively. This is important for our 
global economic competitiveness and our national security systems, and 
to help reduce our dependence on foreign oil. ATP programs invested 
$225 million (including cost share from industry) between 1997 and 2003 
in advanced power technologies, including fuel cells. An example of 
this is the work of ECD Ovonics in Michigan which, leveraging ATP 
investment, has developed new materials used to store hydrogen to power 
fuel cells. This research led to a $40 million development program with 
Chevron Texaco for commercialization, and to work with the U.S. Army to 
develop refueling stations for military fuel cell vehicles.
    ATP investments in advanced manufacturing technologies are helping 
companies develop and adopt leaner and more efficient manufacturing 
processes. This improves their competitiveness and helps strengthen the 
U.S. industrial base. As we are seeing in Iraq and Afghanistan, a 
strong and vital industrial base is necessary for us to produce the 
systems we need for our military, including body armor, combat 
vehicles, and electronics for advanced weapons and communications 
systems.
    Such technological innovations are also critical to homeland 
security. ATP through its own investments and industry cost share has 
invested over $500 million in homeland security technologies like 
biological sensors.
    A March 1999 study found that future returns from just three of the 
50 completed ATP projects--improving automobile manufacturing 
processes, reducing the cost of blood and immune cell production, and 
using a new material for prosthesis devices--would pay for all projects 
funded to date by the ATP. According to the Department of Commerce's 
own 2004 report, returns for the American people, as measured from 41 
of 736 ATP projects (just 6 percent of the portfolio), have exceeded 
$17 billion in economic benefits, more than eight times the amount 
invested by ATP. That's a good return on taxpayer dollars. DOC further 
reports that resulting technologies have been delivered to the nation 
in new or improved industrial processes, products, and services, 
ranging from more efficient energy sources to improved medical tests.
    ATP involvement accelerates the development and commercialization 
of new technologies. Time to market was reduced by 1 year in 10 percent 
of projects; by 2 years in 22 percent of projects; and by 3 years in 26 
percent of projects.
    The ATP has received applications from 50 states and made awards to 
high technology businesses in 40 states plus the District of Columbia. 
Over 170 universities have participated in ATP awards.
    One criticism of ATP is that it has funded research projects by 
large businesses. In fact, small businesses are the primary benefactors 
of the program. About 75 percent of all ATP projects include a small 
business with 66 percent (508 of the 768) being led by or involving 
only a small business. But some amounts of large company joint venture 
ATP participation has been found to be beneficial. The National Academy 
of Sciences' National Research Council found that the diversity of the 
ATP awards, involving both large and small companies, is an important 
feature of the program, and should be retained. It found that large 
companies bring unique resources and capabilities to the development of 
new technologies and can be valuable partners for technologically 
innovative small companies new to the market. ATP requires large 
businesses to contribute more matching funds to ATP projects: At least 
60 percent of project costs.
    The ATP has been extensively studied and time and again it has been 
found to be effective. OMB and the National Academies have rated the 
ATP proposal review process very highly. One of the most comprehensive 
evaluations of the program was undertaken in 2001 by the National 
Academy of Sciences' National Research Council. Dr. Wessner, the editor 
of that report is testifying today. As I'm sure Dr. Wessner will 
elaborate in his testimony, the National Academy found the ATP to be an 
effective Federal partnership program that is meeting broad national 
needs. The Academy recommended that the program receive additional 
funding so that it can further achieve its goals. Mr. Chairman, I ask 
unanimous consent to insert a summary of the Academy's findings in the 
hearing record.
    The Biotechnology Industry Organization (BIO), the Industrial 
Research Institute, the Alliance for Science and Technology Research in 
America, the American Chemical Society, the U.S. Advanced Ceramics 
Association, the National Center for Manufacturing Sciences, the 
Optical Society of America and many other organizations have also 
expressed support for ATP. The Senate recently confirmed its support 
for ATP on a budget resolution amendment I authored with Senator 
DeWine.
    I ask unanimous consent to include in the hearing record a number 
of letters of support for the ATP and other important Federal research 
and development programs.\1\
---------------------------------------------------------------------------
    \1\ The letters appear in the Appendix on page 183.

    Senator Coburn. That is great, Senator Levin. Ms. Nazzaro.

TESTIMONY OF ROBIN NAZZARO,\2\ DIRECTOR, NATURAL RESOURCES AND 
       ENVIRONMENT TEAM, GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Nazzaro. Thank you, Mr. Chairman, and Members of the 
Subcommittee. I am pleased to be here today to discuss our work 
on the Advanced Technology Program.
---------------------------------------------------------------------------
    \2\ The prepared statement of Ms. Nazzaro appears in the Appendix 
on page 52.
---------------------------------------------------------------------------
    ATP was established in 1988 to support research that 
accelerates development of high-risk technologies with the 
potential for broad-based economic benefits for the Nation. 
Between 1990 and September 2004, ATP funded 768 projects at a 
cost of about $2.3 billion in Federal matching funds. Under the 
provisions of the Omnibus Trade and Competitiveness Act, which 
established ATP, program administrators at the National 
Institute of Standards and Technology are to ensure that they 
are not funding existing or planned research that would be 
conducted in the same time period in the absence of ATP 
financial assistance.
    Research can provide both private benefits which accrue to 
the owners of the research results and societal benefits which 
accrue to society as a whole. In some instances, the private 
sector does not fund research that would be beneficial to 
society because doing so might not provide an adequate return 
on the firm's investment.
    To address this situation, the Federal Government supports 
research that has very broad societal benefits. However, there 
is a continuing debate over whether the private sector has 
sufficient incentives to undertake research on high-risk, high 
payoff, emerging and enabling technologies without government 
support such as ATP.
    In this context, we determined whether, in the past, ATP 
had funded projects with research goals that were similar to 
projects funded by the private sector and, if identified, 
whether ATP's award selection process ensures that such 
research would not be funded in the future.
    Our objective was not to provide an evaluation of the 
quality of the research funded by ATP or the private sector nor 
the impact these projects may or may not have had on their 
respective industries.
    To determine whether ATP had funded projects similar to the 
private sector projects, we chose 3 of the first 38 completed 
projects, each representing a different technology sector: 
Computers, electronics, and biotechnology. These 3 sectors 
represented 26 of the 38, or 68 percent of the ATP projects 
completed by 1999. We found that the 3 completed ATP funded 
projects addressed research goals that were similar to those 
already funded by the private sector. These projects included 
an online handwriting recognition system, a system to increase 
the capacity of existing fiber optic cables for the 
telecommunication industry and a process for turning collagen 
into fibers for human prostheses.
    In the case of the handwriting recognition project, ATP 
provided $1.2 million to develop a system to recognize cursive 
handwriting for pen-based computer input, in other words, 
without a keyboard.
    We identified several private firms that were conducting 
similar research on handwriting recognition at approximately 
the same time the ATP project was funded. In fact, in this line 
of research, which began in the late 1950s, we identified 
multiple patents as early as 5 years prior to the start of the 
ATP project in the field of handwriting recognition. We found 
similar results on the other two projects.
    Two inherent factors in ATP's award selection process, the 
need to guard against conflicts of interest and the need to 
protect proprietary information, make it unlikely that ATP can 
avoid funding research already being pursued by the private 
sector in the same time period. These factors, which have not 
changed since 1990, make it difficult for ATP project reviewers 
to identify whether similar efforts are being funded in the 
private sector.
    For example, to guard against conflicts of interest, the 
program uses technical experts who are not directly involved 
with the proposed research. Their acquaintance with ongoing 
research is further limited by the private sector's practice of 
not disclosing its research efforts or results so as to guard 
proprietary information.
    In conclusion, we recognize the valid need to guard against 
conflicts of interest and to protect proprietary information. 
However, as a result, it may be impossible for the program to 
ensure that it is consistently not funding existing or planned 
research that would be conducted in the same time period in the 
absence of ATP financial assistance.
    Mr. Chairman, that concludes my prepared statement. I would 
be happy to respond to any questions that you or Members of 
Subcommittee may have.
    Senator Coburn. Thank you.
    Senator Lieberman, while you were out I offered an 
opportunity for you to make an opening statement now or when 
you start your questions, whichever would be your prerogative.
    Senator Carper. And I spoke on your behalf.
    Senator Lieberman. You gave an opening statement on my 
behalf? Very nice of you.
    I will wait until the last witness and then, if it is all 
right, make an opening statement. Thank you.
    Senator Coburn. Absolutely. Mr. Riedl.

   TESTIMONY OF BRIAN RIEDL,\1\ GROVER M. HERMANN FELLOW FOR 
       FEDERAL BUDGETARY AFFAIRS, THE HERITAGE FOUNDATION

    Mr. Riedl. Thank you, Mr. Chairman, and the Subcommittee 
for scheduling this hearing.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Riedl appears in the Appendix on 
page 104.
---------------------------------------------------------------------------
    My name is Brian Riedl. I am the Grover M. Hermann Fellow 
for Federal Budgetary Affairs at the Heritage Foundation. The 
views expressed in this testimony are my own and should not be 
construed as representing any official position of the Heritage 
Foundation.
    Federal spending now tops $22,000 per household, the 
highest inflation-adjusted total since World War II, and $5,000 
per household more than the government spent in 2001. Budget 
deficits topping $400 billion are forecast as far as the eye 
can see. Given the Nation's budgetary challenges, the Advanced 
Technology Program remains one of the least justifiable 
programs. The President and the House of Representatives both 
support ATP's abolition. The Senate should join them.
    ATP was created in 1988 supposedly to provide research and 
development grants to help small businesses develop profitable 
technologies. In reality, ATP funnels taxpayer dollars to 
Fortune 500 companies. Between 1990 and 2004, 35 percent of all 
ATP funding was granted to Fortune 500 companies. For example, 
IBM has received $127 million in ATP subsidies. General 
Electric has received $91 million. General Motors has received 
$79 million. Motorola and 3M have each received $44 million. 
All in all, 39 Fortune 500 companies have received a total of 
$732 million from the Federal Government in ATP subsidies.
    Mr. Chairman, this is the kind of spending that outrages 
taxpayers. At a time when the Federal budget is deep in the 
red, there is no justification for taxing waitresses in Tulsa 
or cashiers in Flint in order to lavish hundreds of millions of 
dollars on Fortune 500 companies.
    ATP defenders will say that these subsidies generate 
greater technological innovation. They can point to many 
technologies on the market that ATP has funded. Of course ATP 
has funded some successful products. But the key question is 
whether the market would have produced those products even 
without ATP. Both economic theory and practice say yes.
    ATP does not fund basic science research like the National 
Science Foundation. Rather it funds the commercialization of 
research so the businesses can profit from it. Basic economic 
theory tells us that profit seeking firms have every incentive 
to fund profitable R&D themselves. If these projects are as 
promising as claimed, the company should have no problem 
convincing their shareholders to fund the projects or tapping 
into the $150 billion that private investors annually spend on 
R&D.
    The 39 Fortune 500 companies that have received ATP funds 
report a combined $1.4 trillion in annual company revenues. To 
suggest that these companies cannot afford their own R&D is 
baseless. Yes, ATP has funded HDTV and flat-panel televisions. 
But if they had not, a line of investors and businesses surely 
would have.
    The economic argument that ATP merely subsidizes existing 
R&D is also backed up by surveys of ATP participants 
themselves. Although the program is supposed to be a financier 
of last resort for companies that have exhausted all other 
options, a survey shows that two-thirds of ATP applicants never 
bothered to seek any private funding before going to the 
government.
    And among the near winners who had claimed that ATP was 
their final hope, half of them found private funding after they 
were rejected. Among the other half who did not find private 
funding, most never bothered to apply for private funding. They 
just continued to play the ATP lottery year-to-year.
    Not only is ATP a giveaway for wealthy companies that 
merely subsidizes existing research, but evidence shows that 
Uncle Sam is a poor investor. Only one out of three ATP 
projects ever brings a new product to the markets. One reason 
for this abysmal track record, as stated by the last presenter, 
is that ATP officials try to minimize conflicts of interest by 
seeking outside grant reviewers with little or no knowledge of 
the technology markets. And even if they sought market 
knowledge, most private companies in these markets conceal 
their research agendas, leaving ATP officials to guess where 
the market openings are. This blindness results in grants for 
projects that either duplicate existing private research or are 
doomed to fail.
    Consequently, ATP has granted money for technologies that 
had already been developed, patented and marketed by other 
companies years earlier. It has granted money to projects that 
have been discredited by their entire industry.
    Simply put, investors have better knowledge and more skill 
investing than government officials.
    In conclusion, technological advancement is vitally 
important to this Nation's economy. Yet when the governments 
try to pick the winners and losers by micromanaging 
technological innovation, the results will always disappoint. 
ATP subsidizes Fortune 500 companies that already have the 
money and incentive to fund their own profitable projects. And 
too many companies see ATP as little more than an ATM for the 
projects they would never spend their own money on.
    With Federal spending at $22,000 per household and growing 
by $1,000 per household each year, ATP should be the first 
target lawmakers seek for savings.
    I will be happy to answer any questions.
    Senator Coburn. Thank you. We will start the questioning 
with our Ranking Member, Senator Carper.
    Senator Carper. Dr. Wessner, I just want to ask you to 
respond just briefly to some of the comments we have just 
heard.
    Dr. Wessner. Thank you. I appreciate the opportunity.
    I have gone over Mr. Riedl's commentary on the ATP program, 
and I apologize, but I think some of the references there 
illustrate some of the basic flaws in the analysis.
    First, when he refers to basic economic theory, and while 
economic theory is a really interesting thing, it does not have 
a lot to do with how the economy actually operates, 
particularly in the murky stage of early-stage finance.
    The idea that the references to profitable R&D, which 
strike me as something like an oxymoron, decrying that the ATP 
program only succeeds one of three times. The last time I 
checked, a .333 batting average was a pretty good batting 
average.
    In the venture capital community, if you succeed 2 out of 
20 times, you are doing well. I am not sure that ATP actually 
succeeds 3 out of 10 times. But the point is that for early-
stage finance, that is a very high success rate.
    I would also point out, just for a second, if we want to 
talk about economics, that there is a serious selection bias 
here. Two-thirds of the program goes to small firms and all the 
Heritage criticism is devoted to the funds going to large 
firms. It misses the very conception of the ATP program, which 
was to do both grants to small firms with promising 
technologies and to encourage cooperation between large and 
small companies, which is good for the large companies and good 
for the small companies. It is a way of strengthening the 
industrial fabric in the United States on which our national 
security ultimately rests.
    There are also claims that have been made, for example, 
regarding the Communications Intelligence Corporation on the 
cursive handwriting recognition. There is a factual error 
there. That program ultimately succeeded. That ATP program has 
been adopted by the Palm Operating System.
    But fundamentally, what it is important not to leave out, 
when we talk about how well ATP does, is a point of comparison. 
What are we comparing it to? We are working in an area where we 
want to convert research investments into products that help us 
in our lives, that enhance our national security, improve the 
ability of the government to complete its missions. ATP does 
all that. It does it arguably better and with more careful 
assessment than any other program we have.
    I am very pleased to see this status report here. Have you 
ever tried to get a status report on the success of projects 
from the Department of Energy or the Department of Defense? We 
have been mandated by you, the Congress, to look at the SBIR 
program. We cannot get this kind of data on the SBIR program.
    What this data underscores is in fact one of the strengths 
of ATP. It has one of the most rigorous and effective 
assessment programs in the U.S. Government. Its assessment 
program is considered a best practice model around the world.
    Let me just close by saying, that 2 hours ago I left a 
Dutch delegation at the Academies. They were here to talk with 
us about how they might adopt SBIR and expressed their interest 
in ATP. The rest of the world thinks that what America is doing 
with these programs is really quite interesting and quite 
effective.
    Senator Carper. Dr. Wessner, how do you measure success at 
ATP?
    Dr. Wessner. That is a good question, sir. One of the ways 
you can measure success is in commercial sales. You can also 
measure it in terms of patent licensing. You can also measure 
it in whether you have effective spillovers.
    Let me give you a quick case. In the early 1990s there was 
an investment with Bell Labs in extreme ultraviolet 
lithography. That did not seem to work out for about 3 years. 
And then Intel decided that was actually the technology it 
would need to maintain its global position, and it began a 
consortium based on this technology with Sandia National 
Laboratories. I think that illustrates the synergies that this 
program can develop--and particularly, for enabling 
technologies.
    I would consider a metric of success for the funding of 
Afametrics, which may revolutionize how we develop drugs. As 
many of you know, we have a serious problem in drug development 
in this country.
    I would also suggest that the investments in microturbines 
and fuel cells, where ATP has more success than much larger 
programs elsewhere, are a way of enhancing our energy security 
and a way of enhancing our national security by being able to 
provide secure and portable energy supplies.
    There are a whole range of things, but let me just close on 
one of the most amazing set of investments, in 
nanotechnologies, in Zyvex in Dallas. I was inspired by a 
speaker who described how important ATP was to developing his 
nanocompany. And that is exactly were ATP should be in that 
early phase, where it is hard for the companies to obtain 
funding and too risky for venture capitalists to invest.
    And I would want to stress here that this is not an either/
or. We need the basic research. We need the applied research 
that often comes out of the military. We need other programs 
like SBIR that are designed to encourage this. And we need ATP. 
Asking which one is more important is like asking which rung in 
the ladder do you think you need. You need all the rungs on the 
ladder. That is how you get there. You may be able to skip one, 
but it gets very hard to skip two.
    Senator Carper. Dr. Wessner, my staff tells me that the 
percentage of funds that are invested in larger firms, you 
mentioned GE, General Motors, and others, that the percentage 
of funds going to large firms like that has declined over time 
and that now the percentage of monies that are going to smaller 
firms is closer to 75 or 80 percent. Is there any truth to that 
or is that a bold-faced lie?
    Dr. Wessner. No, that is absolutely true, sir. It has gone 
up sharply. In fact, to illustrate the power of the synergies 
of working with large and small firms, thanks to an ATP grant 
GE and a small company were able to develop a new digitalized 
breast imaging that has offered serious health advantages to 
women and to the society.
    Very briefly, the advantages are not that it is better than 
what a very experienced doctor can do, but it is better than 
what the average doctor can do. Because it is digitalized, you 
can get a second opinion easily. It has fewer false positives, 
which has enormous consequences. My understanding is that 
biopsies are running in the $20,000 to $25,000 range. So not 
having false positives that result in unnecessary biopsies, not 
to mention the terror imposed on the woman, is a major gain for 
society.
    And because it was with GE, imagine if the company just did 
it alone. Here is Joe New Company----
    Senator Carper. Dr. Wessner, I am going to ask you to wrap 
up.
    Dr. Wessner. My point is that by working with GE they were 
able to extend this across the Nation, lower the cost, and get 
it out to areas where there is less coverage. So it is working 
with poorer people and more geographically thinly populated 
areas. It is a positive sum that was only possible by the 
double combination.
    Senator Carper. Thank you. Thanks, Mr. Chairman.
    Senator Coburn. I would just make one comment. GE has 
digitalized every area, every radiographic area, that they work 
in. This had no impact in terms of doing it. Because GE would 
have spent the money to do that anyway.
    The cost on a biopsy is about $4,000, not $25,000, and 
digitalization has been taking place in the radiographic 
industry for years with the plan that everything would become 
digitalized. And the fact that a company that spends $5 billion 
a year on its research needs ATP to accomplish this one goal is 
a way of supporting a small company, I would grant you. But in 
an environment when we have $622 billion that we are going to 
spend, over $22,000 per man, woman and child, that we do not 
have the money for today, to say that ATP is responsible for 
that and extrapolate it out is not good science.
    That is an anecdotal observation that would not have 
happened had you all not been there. And I would tell you that 
in every other area of contrast radiography, CTs and everything 
else have been completely digitized. That would have happened 
anyway. They were going to spend the money on it because they 
had to spend the money on it to get it to the point it needed 
to be so that all x-ray technology can be digitalized. And it 
is all digitalized today.
    They all read them from home at night or in the afternoon, 
sipping tea.
    Senator Lieberman, welcome.

             OPENING STATEMENT OF SENATOR LIEBERMAN

    Senator Lieberman. Thanks, Mr. Chairman. thanks for your 
kindness to me. We ought to get together and sip a little tea.
    Senator Coburn. And read an x-ray or two.
    Senator Lieberman. Yes, read an x-ray or two.
    I thank you for calling the hearing. I am an unabashed 
admirer of ATP, so I disagree with respect.
    There is no question about the overall point that Mr. Riedl 
spoke to, which is that we have an imbalance between our 
revenues and expenditures in the Federal Government that we 
have to work to close. But I would not start here.
    Last time I looked, I think this was about $140 million or 
$150 million a year out of a budget now of $2.7 trillion. And I 
think this has a multiplier effect that is powerful for our 
economy.
    It is also in the best tradition of public/private 
partnerships that have made the United States the world's 
technological and economic leader. We have to continue to do 
that if we want to stay there.
    Our history actually shows that from the telegraph to the 
Internet, from the automobile to the airplane, it really was 
Federal support and investment that helped bring those products 
to the market to spur commercial and consumer demand, and to 
create jobs.
    One that I love is that when Samuel Morse sat in the 
Supreme Court building in 1844 and typed out that history 
telegraph message, ``what hath God wrought,'' he was doing it 
in a demonstration fully funded by Congress, less of a 
multiplier effect, I guess, in dollars, than what we are 
talking about. This is the spirit of ATP, which has nurtured 
the kind of breakthroughs that Dr. Wessner has talked about.
    The numbers I have say that overall ATP has invested $2 
billion in nearly 800 projects, helping attract another $2.1 
billion in private investment. And that the current portfolio 
of ATP investments is expected to return at least $17 billion 
in benefits to the American people, which I think is a really 
good return.
    Senator Carper made the point that I wanted to make, that 
the vast majority of these ATP investments go to small 
businesses. There was some earlier inclination to try to 
involve some of the larger businesses cited and to try to push 
them into collaboration with the smaller businesses. But that 
has receded now.
    To me, ATP is a success story that has earned our continued 
support, particularly at a time when we are facing competition 
from abroad exactly in this area. I cite a few countries, 
Sweden, Finland, Israel, Japan, and South Korea each spend more 
on research and development as a share of GDP than we do in the 
United States. That is a bad sign.
    Also, today foreign-owned companies and foreign-born 
inventors account for nearly half of U.S. patents. Of the 25 
most competitive IT companies, only 6 are based in the United 
States and 14 are based in Asia. By the end of 2005, there are 
going to be 59 advanced semiconductor fabrication plants 
worldwide and this industry, which was essentially founded in 
the United States, only 16 of those 59 are going to be based in 
the United States.
    So we have got a problem here and I think de-funding ATP 
would really be withdrawing from the field and could mean 
losing economy changing new technologies to foreign countries, 
to innovators who could not finance their research and 
development efforts here.
    The point is this, that we are living in an age of 
technological advances at very high speed. The famous fable 
aside, in this case, in this global economy and technological 
world, the hare will always beat the tortoise. There are a lot 
of hares waiting to get out of their cages but cannot unless 
they receive the kind of support that ATP gives that they 
cannot find from the venture capital community.
    So I really hope that we will sustain this organization.
    I want to just ask one question and not indulge on your 
goodness in giving me time. Dr. Wessner, I wanted to ask you 
this, if you could think about and speak to what other public 
or private entities would be available to accomplish the goals 
of ATP if ATP were eliminated? In other words what are we at 
risk of losing?
    Dr. Wessner. Thank you, Senator. At least, I think I thank 
you. That is actually an interesting, which is to say a 
difficult, question. I think the short answer is twofold. 
First, there is not a program like ATP. You would open up a gap 
in the innovation system. And I think over time there would be 
a loss for the U.S. economy and for our competitiveness.
    I am not, by any means sir, predicting immediate disaster. 
That would be unwarranted. I would argue that there would be 
things that we would lose out on having funded here and lose 
out on having those benefits and technological----
    Senator Lieberman. If I hear you correctly now and in your 
earlier statement, what we are talking about here is that point 
between the breakthrough discovery and commercialization where 
venture capital often does not tread, which I have heard some 
people refer to as the valley of death in the innovation cycle.
    Dr. Wessner. Yes, absolutely. And the program is uniquely 
designed to address the valley of death. And something that has 
impressed us in the course of the Academy study, and we do not 
say this about some of the other programs we are looking at, is 
that the program has developed exceptional expertise in 
evaluating these applications and in processing them. I think 
that some of the difficulties they have about knowing whether 
or not other research is going on is to be expected. That is 
true in the venture community. That is true in the banking 
community, as well. This is not unusual.
    But they do have valuable institutional knowledge. There is 
a substantial body of work about the importance of what 
economists call intermediating institutions. Between the very 
powerful, and very positive, private marketplace, which 
characterizes the U.S. economy, and the sunken costs of the 
basic research that we carry out, these intermediate 
institutions act as a bridge across that valley of death. In 
short, ATP would be very hard to replace. The accumulated 
expertise is invaluable.
    And could I suggest, sir, that there are two areas of 
application. One is on the health care side where, when we held 
our first meeting on this, senior officials from the National 
Cancer Institute argued that this program could be very helpful 
to them in capitalizing on the increased R&D investments. And 
second, we are coming out shortly with a report that stresses 
the importance of public/private partnerships in developing new 
technologies against terrorism. The fight against terrorism is 
exactly the type of area where you want to bring new 
technologies and products forward faster than the market alone 
would.
    The fact that ATP already has helped in some important 
areas of the war on terror is important.
    Senator Lieberman. Thank you. Thanks, doctor. Thanks, Mr. 
Chairman.
    Senator Coburn. Senator Lieberman, I would like to just put 
in the record to note that according to the testimony we had, 
the written testimony, the U.S. market share of high technology 
from 1988 until 2004 has remained exactly the same at 31 
percent. I, like you, worry about how we are going to compete 
in terms of globalization. But I am also concerned that the 
economics of production favor production outside of this 
country. And to the point that we are facing today, it is 
starting to support the research outside of this country. I 
think that is a valid point.
    I wanted to clarify that the hearing today is not about 
whether research is important to us. The hearing is about are 
there other ways to do it? And are there other ways to spend 
the money? And contrast that with the effectiveness of what we 
are seeing today versus maybe spending that money in other 
areas.
    We spend a ton of money through NIH and through the 
National Science Institute. It is not a question of decreasing 
the research. It is a question of is there a better way to 
spend the money to get more bang for the buck?
    Senator Lieberman. Mr. Chairman, I would just respond 
briefly. Of course, I believe that this ATP does fill a space 
in the apparatus uniquely that is not filled elsewhere. But I 
agree with the two other things you said very strongly, which 
is the real danger now, you are right, we have lost jobs for 
economic factors, basically that people can get things done 
more cheaply elsewhere in the world.
    The danger now is exactly what you have said, which is that 
we will lose the research and development base of our country 
abroad, including the research and development base of American 
companies, because now they can find highly skilled, highly 
educated workers abroad who are still working for much less in 
comparable here. That means we are going to lose the engine of 
innovation which drives the new jobs.
    The other thing, and this is a topic for a separate 
conversation between me and you, but particularly in the health 
area I have been talking to people and trying to put some 
legislation together, and I am going to give you a call and sit 
down with you, aimed at--I am focusing now for a moment on 
NIH--on making sure that we get more from what we are investing 
there and that we develop systems for--and here is the big term 
that I have learned in the last few months, Mr. Chairman--
translational research.
    That we figure out a way, as I put it in lay language, to 
take the clinical breakthroughs and move them more rapidly to 
the bedside, to the doctor's office, to the medicine chest. 
That is a real gap that is not being filled now. Thank you.
    Senator Coburn. Senator Levin.

               OPENING STATEMETN OF SENATOR LEVIN

    Senator Levin. Thank you, Mr. Chairman. I was really 
intrigued, Mr. Riedl, when you made reference to that waitress 
in Flint. I have talked to a lot of waitresses in Flint. And 
they are deeply concerned about 2.7 million lost manufacturing 
jobs in this country the last 4 years. And ATP is one of the 
few programs that we have which is directly aimed at trying to 
see if we cannot have some future manufacturing jobs in America 
where the government is actively involved in supporting 
technologies which might otherwise not be supported.
    Would they otherwise be supported? That is the question 
that we can argue over. But we have got some good evidence on 
that from people who are right there on the front line. We have 
a lot of folks who have received these grants who have said 
that but for these ATP grants, they would not have produced the 
technology. That is pretty direct evidence. There are a lot of 
people who have said this.
    Here is a letter from RAPT Industries in Freeport, 
Pennsylvania.\1\ ``My company, RAPT Industries, was the 
recipient of an ATP award from 2003 to 2005. RAPT is developing 
a revolutionary new process for manufacturing precision optics. 
ATP has played a critical role in our success, funding our 
technology development when NO OTHER source of commercial 
funding was available.''
---------------------------------------------------------------------------
    \1\ Letter from Dr. Peter Fiske, Co-founder--RAFT Industries, Inc., 
dated May 20, 2005, to Senators Carper and Levin appears in the 
Appendix on page 183.
---------------------------------------------------------------------------
    So it is kind of easy for us to talk about theory, and we 
do a lot of that. But there are an awful lot of folks out there 
who have received these grant awards, who have said to us that 
but for that support they would not have been successful and 
that they could not have produced what they produced. And what 
they produced has been a success.
    So I am willing to put an awful lot of stock in those 
stories that we receive from people who have actually been 
recipients of these grants.
    I am also deeply concerned about what other countries do, 
compared to what we do. I am talking here governments. We look 
at worldwide government funding for nanotechnology. Japan spent 
$800 million in 2003 compared to our $774 million. We used to 
spend more than Japan on nanotechnology, by the way. They have 
now caught us and overtaken us.
    I think that there is a philosophical issue here in terms 
of the role of government. You just described this as 
government picking winners and losers and that is it for you. 
We pick winners and losers all the time.
    In energy we pick winners and losers. We decide we are 
going to provide this kind of tax credit for this kind of 
energy development or oil exploration. We are going to supply 
this kind of tax credit for biotechnology. We are going to 
produce Ethanol. I guess the credits for Ethanol is picking a 
winner or loser is it not?
    Mr. Riedl. Not one that we support, either.
    Senator Levin. That is exactly my point, that there is a 
real philosophical issue here. This is not just a question of 
whether or not this specific program has produced more than it 
has invested, and I will get to those numbers in a minute.
    But there is a philosophical issue, a philosophical 
backdrop to your testimony here, which has to do with the role 
of government and just how active do we want our government to 
be in terms of giving incentives or in terms of giving the kind 
of support that some public policy would suggest we ought to 
support, whether it is energy production or whether it is 
putting in energy saving windows. We decided at one point we 
were going to give tax credits to people who will put in energy 
saving windows as a matter of public policy. There were a lot 
of folks who asked what are we doing that for? They said let 
the market decide that.
    We decided well, if you let the market decide that we may 
stay on the same course that we are on relative to energy, 
which is a huge deficit in energy. So we cannot just let the 
market work its will or else we are not going to do things that 
we need to do in energy conservation. We are not going to do 
the things we need to do in global warming. Do we want to let 
the market do what it wants to do in global warming? Or is 
there a public policy that is telling us hey, if you keep going 
down that road, we are going to pay a heavy price. You cannot 
just let the market play out and have its will on everything.
    That does not mean you do not believe in the market. It 
just means you believe in a government role as well. I think 
there is a difference here, a significant difference in 
emphasis, that lies behind your testimony than lies behind Dr. 
Wessner's testimony.
    Now in terms of what this produces, what does the ATP 
program produce? There is a report from the Department of 
Commerce. It is the 2004 Report on Economic Progress measuring 
the impact of the Advanced Technology Program. It is a 
Department of Commerce publication. It says the following: 
Returns for the American people as measured from 41 of the 736 
projects, which is just 6 percent of the portfolio, have 
exceeded $17 billion in economic benefits, more than eight 
times the amount invested by ATP. Resulting technologies have 
been delivered to the Nation in new or improved industrial 
processes, products and services ranging from more efficient 
energy sources to improved medical tests.
    I would ask that the report be made part of the record. It 
may have already been made part of the record.\1\
---------------------------------------------------------------------------
    \1\ The 2004 Report on Economic Progress submitted for the Record 
appears in the Appendix on page 125.
---------------------------------------------------------------------------
    Senator Coburn. Without objection.
    Senator Levin, are you aware of how that $17 billion number 
came into existence?
    Senator Levin. No.
    Senator Coburn. Could we have somebody address that, if 
anybody would care to on the panel, the $17 billion number?
    Let me give you the history of how it came about. There was 
a survey asked by ATP about what do you think the economic 
benefit is of your product. There was no scientific study. 
There was no actual econometric measurement. That was a 
response to a question by ATP of what they thought it was. And 
it has no connection with what reality is because it is a 
thought. It is not a measured response, in terms of economic 
return.
    So we really do not know whether that is a true statement 
or not. It may actually be much higher. But it was on the basis 
of a poll of the ATP awardees that asked them about the 
potential value of that project.
    Senator Levin. I think it could be off but it could be 
accurate. It is the best evidence we have, though.
    Senator Coburn. But from a scientific standpoint, Senator 
Levin, if we are going to make decisions based on total guesses 
on the ATP, and that is what we are doing. There is no 
econometric model that is measuring that.
    And maybe that is something we should do if we continue 
ATP.
    The other thing that I was thinking as you were talking is 
why should the government not have some ownership associated 
with this investment, as we do in a lot of drugs and a lot of 
other money that we fund? Why should the government not get a 
return for that risk? Should there not be a way of sourcing the 
Federal Government back for the risk that it is taking, the 
American taxpayers, in terms of putting this money out there?
    This may very well be a true number. I just would tell you, 
as looking at how the number came about, it is hard to know 
whether it is a real number or not.
    Senator Levin. Let me just read something, and I thank you 
for that. I think it is the best evidence we have, even though 
it comes from the people who received the grants, is what you 
are saying, the people who actually were in the program. I will 
give them a presumption that they are telling the truth. I 
think there is the presumption that they are giving us on an 
honest estimate.
    But in any event, let me just read this one piece and I 
think my time is up. ATP's Economic Assessment Office, 
according to this piece of paper I am reading, and maybe we can 
ask the witnesses if they know if this is accurate. But ATP's 
Economic Assessment Office uses statistical analyses, case 
studies, economic and econometric analyses, surveys and other 
methodological approaches to measure program effectiveness and 
return to taxpayers.
    I do not know where this came from so I cannot tell you 
that this is accurate but I have to assume it is, since my 
staff gave it to me. They always give me accurate information.
    But according to this, the Economic Assessment Office at 
ATP does use econometric analyses. So we ought to find out just 
what is the basis from them, since they are not witnesses here 
today--I wish they were. But in any event, perhaps we could ask 
them what is the basis for that $17 billion.
    Senator Coburn. Absolutely. That is a fair question. And 
actually, without objection, we will ask that question of ATP.
    Senator Levin. That would be great. Thank you, Mr. 
Chairman, my time is up.
    Senator Coburn. You are welcome to continue if you would 
like.
    Dr. Wessner. Senator, may I make a small comment?
    Senator Coburn. Absolutely. Please do.
    Dr. Wessner. Let we say that I admire your skepticism about 
numbers in the evaluation process. I think that is often most 
warranted, and I mean that very sincerely.
    What I can affirm is that our multi-hundred page study here 
looked very carefully at their assessment program. And our 
view, a view of independent economists not attached to the 
program, is that it had the greatest rigor of any comparable 
program.
    Senator Coburn. In the Federal Government?
    Dr. Wessner. Yes, in the Federal Government. Now that may 
not be a high standard.
    Senator Coburn. That is a low standard. I want you to know, 
that is a very low standard.
    Dr. Wessner. Given, Senator, that I said compared to what? 
They do way better than most.
    Second, could I draw to your attention, and I do not want 
to read it at any length, but on page 208 we have a paper by 
two independent economists. They concluded--and I will be very 
brief here, Senator--that ATP is selecting projects and firms 
that have greater potential for increasing the circulation of 
new knowledge and for having the business connection necessary 
to realize economic benefits from its activities.
    I am jumping ahead. We provide evidence that the investment 
community values the ATP award. Among firms that seek 
additional funding, we find that ATP award winners are more 
successful than non-winners.
    Now I am very attached to the private markets, and what I 
find validating for ATP is that after they have made those 
awards the companies get this halo effect, this certification 
effect, where the private investors are attracted to them.
    Senator Coburn. So what you are saying, there is value to 
recognition by ATP through a grant that allows them better 
access to more marketable money?
    Dr. Wessner. It generates better recognition--because the 
investment community recognizes that the selection criteria are 
tough. Remember only 12 percent of the firms are selected. In 
that regard, that is why I reject this idea that ATP is 
corporate welfare. Corporate welfare, as you know, is an 
entitlement for a class of people or firms--but only 12 percent 
of the ATP applicants receive an award. Thus an ATP award is 
much more akin to getting a scholarship. It is very competitive 
and you have to be good to get it.
    Senator Coburn. Thank you. Ms. Nazzaro.
    Ms. Nazzaro. If I may comment, one comment that Dr. Wessner 
made was that the individuals that were doing these reviews 
were not affiliated with the Department of Commerce. You may 
want to include that as a question for the agency because we 
have found in the past that these reviewers are, in fact, paid 
by the Department of Commerce to do these studies. While we did 
not review the 2004 study, we have reviewed earlier studies and 
have found that some of the economic assumptions that are made 
have been flawed.
    For example, in one case they had cited an example with the 
printed wiring board effort that they had funded. And they had 
extrapolated that that influence went to the entire industry. 
Well, the industry at the time had 800 members. So there was no 
way that one project had that kind of an impact across the 
whole industry, if you will.
    Granted, what they had done was good research. However, you 
could not make that kind of an extrapolation.
    Senator Coburn. I think it is also fair to note, if you are 
a stockholder in a major corporation, you are thrilled to get 
an ATP grant. That is return on your money. There is no 
investment, there is no risk on this money.
    I want to ask a question if I might. One of my concerns 
with ATP is this is supposedly grant money from people who 
cannot get money somewhere else. Is that true? Is that the way 
the project is supposed to be set up? In other words, the 
design behind the ATP program was that this was going to supply 
a need where capital was not available for research in the 
private sector?
    Ms. Nazzaro. Just one caveat to that is that it would not 
be funding existing or planned research that would be conducted 
in the same time period, in the absence of ATP.
    Senator Coburn. So there is two points. First, the GAO 
study found that 63 percent of the people who actually got 
grants never asked for money and never applied for any money in 
the private sector? Is that a true statement?
    Ms. Nazzaro. Correct. That was in our 1995 study.
    Senator Coburn. And second, there was no knowledge on the 
part of ATP in granting that whether or not there was any other 
research being done in any of the private sector. Is that a 
true statement, as well?
    Ms. Nazzaro. At that time, yes.
    Senator Coburn. Is that not true now? Has ATP responded to 
that criticism? Do we see something different now?
    Ms. Nazzaro. Yes, in response to that report that we did in 
1995, when we did bring them to task, if you will, on the fact 
that they were not aware of whether these individuals had 
applied for funding other places, they do now ask that question 
of whether they have. As to what weight that bears in their 
final determination, I am not aware of.
    Senator Coburn. My staff tells me having not sought private 
funding today is still not a disqualifying factor.
    Ms. Nazzaro. As I said, I do not know what the implication 
is but they do ask the question.
    Senator Coburn. Mr. Riedl, did you want to say something?
    Mr. Riedl. On that, that is exactly the same research that 
we have seen, that 63 percent never sought private funding that 
apply, 65 percent of the winners never sought private funding, 
and 56 percent of the near-winners never sought private 
funding.
    Again, of those who said it was the financier of last 
resort who just came up short, half of them miraculously found 
funding after they were rejected. Most of the other half who 
did not never looked. These are people who never looked before 
and never looked after. They decided that we are only going to 
keep playing the ATP lottery year after year.
    So for the most part, the argument that we need these 
grants because we need this technology to keep up with other 
countries is tough to sustain when data shows that those who do 
not get the grants or who look are able to get funding 
elsewhere. What that shows is that we are subsidizing existing 
research. Despite the best of intentions to create new 
research, it does not do that.
    The point also that I want to make on that is, in terms of 
the broad argument about how we need to fund technology and how 
important it is, total Federal R&D spending, according to OMB, 
has jumped 53 percent since 2001 to $122 billion. ATP 
represents 0.1 percent of the Federal R&D budget.
    So we are not talking about totally taking five steps back, 
in terms of Federal R&D spending. We are talking about the 
small sliver, 0.1 percent, that really has an abysmal track 
record. And that could be shifted into, say, the NSF or the NIH 
or something else where you do not see evidence that you merely 
be subsidizing existing research.
    The final quick point that I wanted to make was regarding 
the argument that ATP creates $17 billion in new value, again 
that $17 billion number is only relevant if you assume that 
none of those ATP grants would have been funded by the private 
sector. If ATP projects create $17 billion but you assume that 
most of those projects would have been funded anyway and then 
you would say the private sector would have created $17 billion 
in new growth for the economy other than the ATP.
    And if it is important to have the ATP's endorsement in 
order to attract more seed funding, I would be happy to have 
ATP slap a sticker on certain projects, saying the Department 
of Commerce thinks this is a really good project so other 
investors go for it, without necessarily giving them the grant. 
If the grant is not the best thing, just the endorsement, give 
them the endorsement.
    Senator Coburn. Let us go back to those people who do not 
get grants from ATP. What percentage of the people who do not 
get grants, who apply for grants but do not get grants from 
ATP, get funded in the private sector?
    Mr. Riedl. The only surveys that I have seen only look at 
the near-winners, the people who came up really close. Half of 
them find private funding after, is the number that I have 
seen. And again, of the half that do not, that overwhelmingly 
correlates with those who do not look for private sector 
funding afterwards. So among those who look, the vast majority 
find private sector funding.
    Ms. Nazzaro. Our numbers support that statement, that half 
of the near-winners continued their projects without relying on 
ATP funding.
    Another important note is that seven applicants in our 
study turned down offers from the private sector because they 
could not reach an acceptable funding arrangement.
    Senator Coburn. In other words, they went ahead anyhow but 
they did want the private sector because they did want to give 
as much of a percentage of ownership should they have been 
successful? Was that the implication?
    Ms. Nazzaro. That was why they came to ATP, because they 
had actually sought funding but turned down offers from the 
private sector.
    Senator Coburn. Dr. Wessner if, in fact, the Federal 
Government continues ATP and does it in a way to where the 
Federal Government gets a revenue stream off of it, and if your 
numbers are correct, in 2 or 3 years we can fund more than $125 
million just off the earnings potential of the research that 
you are doing. Why would we not want to make this an 
investment, rather than a grant, and saying that we are a 
participant, just like our universities are on drugs and other 
patents and other patents. Why would we not want to turn ATP 
into that type of a vehicle?
    And if it is really getting a $17.2 billion return on $125 
million, why would we not want to grow that in a private 
investment mechanism and endow it?
    On the things we fail to do in Washington is to endow 
things. That is why we are struggling with Social Security. We 
are struggling with Medicare. We are struggling with them 
because we do not save in advance. We do not prepare for the 
future.
    I would just love your thoughts. What about sharing--what 
is wrong with the American taxpayer, who has now put over $2 
billion into this program and gotten what looks like a 900 
percent return to the economy over the life of the program, 
what would be wrong with the American taxpayer sharing enough 
to continue the program?
    Dr. Wessner. Thank you, sir. We have analyzed a number of 
other programs and are in regular dialogue and consultation 
with countries around the world who have similar programs. The 
European Union, because of their suspicion of the private 
sector, is always trying to have recoupment mechanisms. And 
Senator, there is strong support from lawyers and accountants 
to do recoupment programs from which they would profit.
    The difficulty is that it is very hard to calculate the 
exact benefit that results from any particular grant or any 
particular project. CEOs generally think it is thanks to their 
leadership and vision that the company goes on to have major 
sales. The technical staff generally think it is because of 
their competence and skill. The government likes to claim----
    Senator Coburn. But that is an intermediary problem. That 
is negotiated every day in the private sector. I am going to 
give you $50,000, here is what I am going to expect if we are 
successful and we have a patentable and marketable product. 
Here is the share of the return and here is the share of the 
gross sales.
    Dr. Wessner. We think the government already is a partner. 
The government is a partner because if the company is in 
existence and paying salaries, we tax them. If the company is 
making any money, we tax that revenue, as we should. It is a 
much cleaner, simpler system.
    Senator Coburn. Except for everybody that is not getting an 
ATP grant, they are not getting the money and they are getting 
taxed as well.
    Dr. Wessner. It is a competitive program, sir. Not 
everybody gets a scholarship
    Second, if I could go on, we are drawing our figures from 
this analysis, which is publicly available both on the Web and 
we have them here. Some of these claims, leaving aside my GAO 
colleague, I do not recognize where they come from. I would 
like to say, in a friendly but very sincere fashion, that this 
is a serious topic. And making unsubstantiated claims that the 
private sector would have done it anyhow, as one of my 
colleagues here has done, is simply not acceptable analysis. 
There is no documentation for that. Our figures do not support 
that assertion of the same high number of companies being 
funded anyhow.
    Senator Coburn. What do your numbers show, in terms of----
    Dr. Wessner. Seventy percent do not go on at all or at the 
same level.
    Senator Coburn. How many go on, at any level, that are 
turned down by ATP?
    Dr. Wessner. Thirty percent, if my memory serves me.
    Senator Coburn. At any level?
    Dr. Wessner. At any level. But I would be happy to get back 
to you for that and we can actually document this for the 
record in a serious fashion.
    Senator Coburn. So 70 percent of the people who do not get 
an ATP scholarship do not continue their research?
    Dr. Wessner. In that area, of course.
    Senator Coburn. In that area. Nobody picks it up, it does 
not continue. And you all have looked at the studies to see 
whether that has been picked up by the private sector?
    Dr. Wessner. My understanding is that the figure is 70 
percent either not at all or not at the same level. These 
things are measured in some nuance, Senator. It is difficult to 
ascertain if it is a major program or does the company just 
have one engineer working on it?
    One of the points I raised earlier, and as Senator 
Lieberman suggested, is that it is important to dialogue about 
this because the hurdle rates and the development process 
within a firm are hard to understand. Asking a CEO what he is 
going to do in a particular area, how many resources he is 
going to put in, what is the potential, can management justify 
the investment compared to alternatives, is difficult. In the 
best of circumstances, this is all very tough to learn even 
without any Federal award at all.
    What we have seen is that the Federal awards have a 
catalytic effect that tend to provide internal justification 
for investment and also attract external investment. The awards 
help get something done.
    Occasionally, a researcher can come in from the R&D unit 
and say ``look, we just got this ATP award and we want to go 
forward with this.'' And the CEO who had turned down the 
project earlier will say ``OK, let's go for it. There may be a 
market there, and this will provide me with some reputational 
benefits which will enable us to go ahead.''
    And again may I put a nuance here? We are not saying that 
the early-stage financing system in the United States would not 
work in the absence of ATP. That would be absurd. But to say 
that this program adds value is true. Also, what I liked was 
your opening remark, ``Is it a quality program?'' Yes, it is 
both internationally and nationally, a quality program. In 
fact, it is one of the best we have.
    Is there an impact? Yes, and they have made a real 
determined--not perfect but determined--effort to measure it 
much better than others.
    Is there a significant benefit? Yes. Have I associated the 
Academies' work with that $17 billion return number? No, sir, I 
have not.
    Senator Coburn. The problem is, and maybe it is our 
measurement. But if you use the PART program that we are trying 
to use in the Federal Government to assess whether programs are 
successful, whether they have a measurable end point, can you 
mention the benefit, do you have defined objectives, it does 
not meet it. And that is why it was on the President's list.
    And the whole purpose of this hearing is to see is if that 
is legitimate?
    Let me just stop for a minute and I want to raise the 
level. Every man, woman, and child in this country right now 
owes $36,000 on the Federal Government's debt. The interest on 
that is $1,800 this year. Plus we are going to add another 
$2,200 associated with the budget deficit, the real budget 
deficit, this year. Plus we are going to add another $1,100 in 
Social Security increased liability and we are going to add 
another $2,600 this year to everybody in this country in terms 
of Medicare unfunded liability.
    So we are either going to start making the tough decisions 
about what is good for us and what is not and it may be that 
ATP is a great program. But should we be spending the money on 
that great program when there are other great programs that we 
could? And can we continue to spend $125 million or $135 
million on ATP program when what it is doing is actually 
cutting the legs out from underneath the children of the next 
two generations because they are going to have a reduced 
standard of living?
    So it is not about priorities. That is where we have to get 
to. And I recognize and I will tell you, and I think your 
performance and your demonstration and defense--I read your 
testimony, it is an excellent defense of this program. And I 
think it is done very well. But I also think that there are 
still questions that need to be answered with this program.
    One of them is on this slide. The fact that there is no 
status on programs from 1992, 1994, 1997. The fact that we do 
not know the status? That is a problem in itself.
    But again, let us look at it macro. What should we do as a 
country, now that we are almost $8 trillion in debt on the 
regular budget, that we have $43 trillion in unfunded 
liabilities for the baby boomers, that is my generation and 
maybe a few of you sitting out there. And we are going to ask 
our children to pay for it. So it becomes a matter of priority.
    Which is the best programs that we should fund? What should 
we fund first, second, third, fourth, and fifth.
    If we were in surplus, I probably would not even be having 
this hearing because there has been marked improvement in the 
ATP program since 1996. They have markedly changed. They have 
changed the amount of money that goes to small businesses and 
taken a lot more away from it.
    But that is not what the issue is. The issue is: Can we 
afford to have a program when we are having the kind of deficit 
and problems that we are having today? And is it, looking at 
the next two generations, in the priorities of where we should 
be spending our time today?
    I believe that we can justify most of the Federal 
Government programs that we have. I think most of them are 
well-intentioned, well-meaning, the thought behind them, the 
people that created them, the people that work in them are 
well-intentioned. But when we put all that together and then we 
say our grandkids are not going to be able to afford a college 
education--it is not going to matter whether we send technology 
oversees. We are not even going to be able to afford a college 
education for them as we struggle with this unfunded liability 
that is in front of us.
    So we need to have a critical look, not emotional but a 
critical look, at everything this government is doing and say 
which is the most important priorities. And if you look at the 
numbers that are happening to us and what the projections are, 
we cannot grow our way out of it.
    So the answer then has to come back as where do we squeeze? 
Now we could do what I have offered several times. Let us cut 
everything 5 percent. We could make it. If we cut ATP 5 percent 
and everybody else 5 percent, we could make it. We know we 
could do that. But we do not have the political will to do 
that. We do not have the political will to send that signal to 
the international financial markets, which is our biggest 
problem today.
    So I do not want you to take this personally, I do not want 
the people at ATP to take this personally. This is about a 
good, open, honest evaluation, not is it good. But is it good 
enough to continue spending the money on that is going to 
undercut the future of this country? Because this money is 
borrowed. On 30-year notes we are paying 4 percent on it and it 
is going to be compounded every year. So by the time you really 
start compounding, you get a lot of money.
    What is our obligation? Is it to make the easy choices now 
and fund ATP so that everybody at home is happy and the people 
who run ATP are happy? Or is it to make the hard long-term 
choices that are best for this country? How do we best secure 
the future?
    And that is my consideration. Ms. Nazzaro.
    Ms. Nazzaro. Dr. Wessner points to some of the studies that 
we have done. In our most recent study, where we looked at 
three projects, our concern was to look at whether this is 
research that the private sector would have funded. In those 
three projects we identified that they were funding projects 
that were similar to the same goals that the private sector 
would have funded.
    In their agency comments, the Department of Commerce came 
back and said if we had looked at all 199 projects that were 
funded at that time, we would have reached the same conclusion. 
So they concurred that we were not trying to pick examples 
hopefully to make a best case.
    Senator Coburn. So Department of Commerce readily admits 
that they are funding things that would have been funded in the 
private sector?
    Ms. Nazzaro. In the comments to our report, first they 
said, we presumably picked these three projects with the intent 
to make a particular point. We said we did not. We picked three 
technology areas. Those technology areas represented almost 70 
percent of the projects that had been funded by the program.
    Initially, we intended to look at nine case studies. But 
when we realized how labor-intensive it was to do an adequate 
and thorough job, we cut that back to three to make sure that 
we were really researching to make sure that these projects 
were, in fact, similar research goals.
    And when they came back and commented on our report, they 
said if we had looked at all 199 projects that they had funded 
to date, we would have reached that same conclusion.
    Senator Coburn. Thank you. Mr. Riedl, I think it is really 
fair for you to be able to reference your numbers. I think Dr. 
Wessner makes a great point. And I think if you do not have 
those numbers, you need to----
    Mr. Riedl. I do.
    Senator Coburn. I will give you an opportunity to do that.
    Mr. Riedl. The numbers that I had mentioned, specifically 
that the idea that ATP individuals who are near-winners could 
find funding in the private sector, is not just an economic 
theory that Heritage has pulled out of a hat. This is based off 
a survey through a GAO report that was reported in January 
1996, which I believe you have with you today.
    Senator Coburn. It is a part of the record.
    Mr. Riedl. That shows specifically that half of those near-
winners reported finding private sector funding later. And the 
vast majority of those who did not find private sector funding 
later reported in a survey to GAO that they did not seek 
private sector funding.
    And furthermore, there is actually a report that was 
written by the National Institute of Science and Technology 
within the Department of Commerce in December 1996 that 
admitted that ATP funds projects which are the most profitable, 
the most ready for commercial success, and therefore the ones 
that the private sector would have most incentive to fund 
anyway. This is the Department of Commerce, itself, saying 
this.
    So I think there is some degree of universal agreement in 
most areas that there is a real economic issue regarding 
whether or not we are subsidizing existing research that would 
have happened anyway, or new research. The evidence seems to 
show whether it is a PART, GAO, or a Heritage's analysis, that 
we are probably subsidizing existing research.
    And while I do not want to quibble with the studies that 
are being quoted by Mr. Wessner, he did mention that one of the 
studies was led by Intel, a gentleman from Intel. And it is not 
uncommon for studies headed by the industry receiving 
government studies to show that the subsidies lead to the 
public good. That is not uncommon to see those conclusions.
    Senator Coburn. My observation is that there has been some 
pretty good improvement through what Dr. Wessner has given 
forward in his testimony versus 1996. And so I think our 
dependence is on that.
    But I think there is a valid point in what you say, Mr. 
Riedl because if, in fact, they want us to believe the $17 
billion survey but do not want us to believe the survey that 
says the opposite of that, you cannot use those same methods 
and come down.
    I think it is important for us to have a healthy look at 
it.
    Dr. Wessner, I am going to give you an opportunity to 
comment again because I want to make sure you get into the 
record what you want and rebut what you heard from Mr. Riedl if 
you want to.
    Dr. Wessner. Thank you. There are two things.
    One is there are perhaps three brief elements. The first I 
would like to express quietly a level of outrage about the most 
recent comment about Gordon Moore. As I am sure you know, sir, 
Gordon Moore was a founder of Intel. At the time of this study 
I think he was worth many billions of dollars. He is retired 
after a long, arducous, and successful career. Many of the 
medical instruments that you use are as a result of the 
advances that have gone on through Moore's Law. He is a 
distinguished person and has chaired the CalTech Board. The 
idea that we need to raise an ad hominem comment about a man 
who gave freely of his time in his retirement years to lead the 
study is repugnant in the extreme.
    I would point out that Gordon Moore was initially skeptical 
about ATP. He was skeptical that we should intervene in the 
market at all, although he recognized that the semiconductor 
consortium Sematech was not a bad idea, (and a successful one I 
would note). Indeed, Gordon Moore likes to point out that in 
the case of Sematech, the entire Federal contribution over the 
9 years is paid back quarterly by Intel in its taxes.
    His observation illustrates the point that as these 
partnerships to go forward, the gains that you are looking for 
are realized. Let me also stress that I am very sensitive to 
the deficit. My son is 19. He is taking economics, bless him. 
And he came down and said ``dad, how are we going to pay back 
this deficit?'' And I said ``who is we, paleface? This problem 
is yours.''
    Senator Coburn. But that is a very important point and let 
me make it just for a second. Never in the history of our 
country have we had one generation of Americans about to leave 
the next generation in such sad shape. Our heritage defies that 
we would do that.
    And so when we come to a $125 million program that may have 
some good, is there another $125 million program that has more 
good?
    In other words, it is not about everything is bad. It is 
not. Unfortunately, my frustration is we cannot get enough 
people up here thinking that way because we are not going to 
trip the deficit until we have a financial disaster in the 
international financial community. I am pretty well down to 
that. But that does not mean we should not try.
    And so the improvements that have been made in the ATP 
program are great, and it is not that we should not do 
research, and it is not that there are not good outcomes from 
some of that research. And it is not that everything that ATP 
does is wrong or less than perfect. It may be that 80 percent 
of it is right.
    The question is can we afford to continue to spend $125 
million in this area, versus should we cut $125 million out of 
Medicaid? Or should we reverse the Stark Law so that we allow 
medical technology to flow from hospitals to doctors so we 
decrease medical error?
    The point is that we have to make those decisions and it is 
incumbent upon us to start doing it pretty quickly or we are 
all going to be in a pretty good sized jam.
    I think your testimony, and your defense of where they are, 
demonstrates very well that there has been major improvements 
since 1996. Your testimony said that.
    Some of the anecdotal--and I have trouble with anecdotal 
stories because they do not mean anything scientifically, they 
do not mean anything mathematically, and they do not mean 
anything economically because they are an observation of what 
happened but do not compare what happened to what might have 
happened by chance or in the private sector.
    So when we try to make decisions for investment of Federal 
taxpayer money based on anecdotal observation, it is not good 
science. And we have enough junk science up here, and we 
certainly should not be using it with economics. We cannot make 
that decision.
    An example being digitalization of mammography. I will 
guarantee you as much as I take my next breath that that would 
have happened in the private sector without the first penny 
from ATP because it was happening everywhere and it had to 
happen if GE wanted to sell mammography units. They would have 
funded it had you not funded it.
    Dr. Wessner. Senator, first off, we at the Academies do not 
fund it. And I would be the last----
    Senator Coburn. I mean ATP.
    Dr. Wessner. I will be the first person to defer to your 
expertise in medical technologies. But I can give you, at the 
close of this session, the page number where Dr. Griffiths from 
GE made that argument.
    Senator Coburn. If you are from the private sector, you 
would make the argument every time. You do not have to spend 
the money. You did not have to spend the money, the Federal 
Government spent the money for you.
    Dr. Wessner. Actually, they had to spend a lot more money.
    Senator Coburn. But they got Federal Government money. If I 
got a grant and I said hey, I am successful with it, you guys 
did it.
    Dr. Wessner. I can only tell you what the interview found. 
We did not conduct the interview--it was done by a group of 
Harvard researchers--who found that GE basically did not think 
that there was any money in this technology, in this 
mammography system. And they were not willing to do it. The ATP 
award let the advocates of this new technology win the day 
inside.
    While recognizing the reality of a $2.7 trillion budget I 
would suggest that the real challenge, if I may venture, 
Senator, is that the difficult choice is to keep ATP.
    Senator Coburn. Maybe.
    Dr. Wessner. Because the tides are against it politically. 
The difficult choice is to say that the ATP program is actually 
seed corn. And the seed corn is what we need to plant.
    Senator Coburn. That is a great point.
    Dr. Wessner. Will every one sprout? No. But the chance that 
only a third of them do is, in fact, a very positive statement. 
And they can pay back--that is my point about Intel. They can 
pay back over time to help reduce this deficit.
    Senator Coburn. But we have to qualify. A third do but many 
of those would have anyway, according to the research that has 
been done about ATP. Because the private sector would have 
funded about half of them. And half of those who did not get 
funded would have gone on anyway.
    Dr. Wessner. I am running a team right now of about 16 
economists for an evaluation that the Congress mandated of the 
SBIR program. The hardest thing in the world, Senator, is to 
figure out what would have happened anyhow. The question is 
analogous to ``If you had not married your wife, who would you 
have married?'' ``If you had not gotten the scholarship, would 
you have gone to college?'' ``Where would you have gone to 
college?'' ``What would have happened?'' Those are darn 
difficult questions.
    Senator Coburn. Those are great points. But we do have 
testimony and there is a GAO report that says here is the 
facts.
    There has been improvement and I think you make a great 
point. The hard thing maybe to continue to fund ATP in those 
choices. You may be right. But what we have to do is really 
know what the return on it is.
    The other thing that I am a little bit disappointed in is 
everybody pays taxes that does research in this country that 
makes any income. They pay it on their employees and everything 
else. And I believe I see a way to fund ATP in the future. And 
it ought to be endowed by the money, the seed money it puts in. 
And it ought to get a return for the taxpayers.
    And if we continue ATP, then we ought to be figuring out a 
way for ATP to become self-funded. And if ATP is great, then 
let us self-fund it and let us let it grow. And let us let it 
get bigger.
    Dr. Wessner. We would be happy to study that for you, sir.
    Senator Coburn. I do not want to study it. I understand one 
thing. Greed conquers all technological difficulties. It does. 
The desire to advance, to advance oneself, will cause people to 
take risks that they would not have otherwise if they perceive 
that risk benefit reward. That is true in government. That is 
true in the private sector. That is true of senators and 
congressmen.
    And so my hope is that bringing this information forward 
today--actually, I have gotten a good viewpoint. I am 
enlightened somewhat. And I am much more positive about what 
the changes from ATP than what we saw in 1996. But that does 
not mean it should not change some more.
    The question is if it stays around, how should we modify 
it? How should we make it more effective? How should we make 
sure that the American taxpayers, if they are going to fund 
$125 million a year, of which half of it is probably going to 
have been funded anyway, how do they get a return on that? And 
how do we build an endowment so that endowment pays for that? 
Ms. Nazzaro.
    Ms. Nazzaro. Just in summary, we would like to also 
reiterate your opening remarks, that ATP has certainly been 
associated with a number of successes. And we have given them 
credit for encouraging joint ventures and economic growth.
    However, the discussion cannot be just about benefits. It 
has to be about costs.
    And you talked about whether there are other ways to do it? 
If half the projects now are going to small businesses, there 
is the $1 billion Small Business Innovation Research Program, 
as well as the Small Business Technology Transfer Program. We 
have seen that some of the applicants not only receive ATP 
funding but then go and get SBIR awards, as well.
    Senator Coburn. They know where the money is.
    Ms. Nazzaro. They know where the money is, that is right.
    Also, your discussion of payback. It is our understanding 
that the Act originally had a payback provision. And each year 
GAO does a report called the Budget Options Report. We have 
continuously made that recommendation, that for research, there 
should be a payback, particularly if it is large companies that 
are getting the money. There has to be a way that you can 
assess what the impact has been, whether you have been allowed 
to commercialize a product and you are now having sales or 
revenues, you should be able to pay back some of that money and 
make it a self-sustaining program.
    Senator Coburn. Dr. Wessner.
    Dr. Wessner. Just a quick observation. We are looking at 
the SBIR Program, as I mentioned.
    One of the things that is important to keep in mind--we 
refer to the active venture capital community, but the fall 
from $100 billion available in the year 2000 to just over $20 
billion now illustrates some of the unpredictability of venture 
markets. Both SBIR and ATP saw very rapid rise in applicants as 
the private sector--if you take a glance at this--as they moved 
farther upstream and away from this valley of death area.
    The last point, if I may, simply, for the record, sir, 
because it is an important one, regarding the statement by my 
colleague, whom I respect immensely, that NIST agreed with them 
on their 2000 report is not accurate. I would simply like to 
enter into the record the director at that time writing that he 
``disagreed with both the methodology and the conclusions 
reached in this report.'' He writes that the implied argument 
in the GAO study is that the Federal Government should not fund 
research that shares the same overall goal as research funded 
outside the government. By that criterion, he notes, we would 
shut down Federal research on cures for cancer and AIDS and a 
host of other diseases, wireless communications, computing 
technologies and manufacturing. The fundamental error in this 
report is its failure to understand and address the central 
aspect----
    Senator Coburn. You can submit that for the record and we 
will include it in the record.\1\
---------------------------------------------------------------------------
    \1\ The GAO report appears in the Appendix on page 66.
---------------------------------------------------------------------------
    Dr. Wessner. My point is that they took strong issue.
    Senator Coburn. We will also include the letter from 
Appendix V, comments from the Department of Commerce, page 35, 
which states the opposite of that or a different opinion than 
that.\2\
---------------------------------------------------------------------------
    \2\ The letter appears in the Appendix on page 99.
---------------------------------------------------------------------------
    Let me also make one last note, and then we will adjourn 
the meeting. And I want to thank each of you for spending the 
time to come here. Thank you for your efforts and your service 
to the country and your efforts to make sure we make good 
decisions.
    When you talked about the other countries that, in fact, 
fund research through their government, what is their 
percentage deficit to their GDP?
    Dr. Wessner. Most of them just export to us, sir. They are 
doing pretty well.
    Senator Coburn. That is right. Most of them have surpluses. 
They do not have deficits. A big point.
    We could be in a lot of different things if we did not have 
a deficit, if we were in surplus. I might even earmark 
something for the first time in my political career, which I 
have never done.
    But the fact is we are not there. So in comparison, you to 
compare what our investment is as a percentage of our GDP and 
what our deficit is as a percentage of GDP as to whether or 
not--the fact is, we cannot grow out of it. It would be 
wonderful if we could, but we cannot.
    I would still make one point, we still have the highest 
growth in productivity of anybody in the world. We have the 
highest growth in productivity. And that is because we are 
working hard at doing it. And most of that is coming out of the 
private sector. It is not coming out of government-funded 
research. It is coming out of innovation and that concept I 
talked about before, greed conquers technologic difficulties. 
And we need to recognize that.
    I want to thank each of you for being here. A copy of the 
record will be made available to you. A copy of the record will 
stay open for any additional comments from any other Members of 
the Committee.
    Thank you very much and the hearing is adjourned.
    [Whereupon, at 4:09 p.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T1826.001

[GRAPHIC] [TIFF OMITTED] T1826.002

[GRAPHIC] [TIFF OMITTED] T1826.003

[GRAPHIC] [TIFF OMITTED] T1826.004

[GRAPHIC] [TIFF OMITTED] T1826.005

[GRAPHIC] [TIFF OMITTED] T1826.006

[GRAPHIC] [TIFF OMITTED] T1826.007

[GRAPHIC] [TIFF OMITTED] T1826.008

[GRAPHIC] [TIFF OMITTED] T1826.009

[GRAPHIC] [TIFF OMITTED] T1826.010

[GRAPHIC] [TIFF OMITTED] T1826.011

[GRAPHIC] [TIFF OMITTED] T1826.012

[GRAPHIC] [TIFF OMITTED] T1826.013

[GRAPHIC] [TIFF OMITTED] T1826.014

[GRAPHIC] [TIFF OMITTED] T1826.015

[GRAPHIC] [TIFF OMITTED] T1826.016

[GRAPHIC] [TIFF OMITTED] T1826.017

[GRAPHIC] [TIFF OMITTED] T1826.018

[GRAPHIC] [TIFF OMITTED] T1826.019

[GRAPHIC] [TIFF OMITTED] T1826.020

[GRAPHIC] [TIFF OMITTED] T1826.021

[GRAPHIC] [TIFF OMITTED] T1826.022

[GRAPHIC] [TIFF OMITTED] T1826.023

[GRAPHIC] [TIFF OMITTED] T1826.024

[GRAPHIC] [TIFF OMITTED] T1826.025

[GRAPHIC] [TIFF OMITTED] T1826.026

[GRAPHIC] [TIFF OMITTED] T1826.027

[GRAPHIC] [TIFF OMITTED] T1826.028

[GRAPHIC] [TIFF OMITTED] T1826.029

[GRAPHIC] [TIFF OMITTED] T1826.030

[GRAPHIC] [TIFF OMITTED] T1826.031

[GRAPHIC] [TIFF OMITTED] T1826.032

[GRAPHIC] [TIFF OMITTED] T1826.033

[GRAPHIC] [TIFF OMITTED] T1826.034

[GRAPHIC] [TIFF OMITTED] T1826.035

[GRAPHIC] [TIFF OMITTED] T1826.036

[GRAPHIC] [TIFF OMITTED] T1826.037

[GRAPHIC] [TIFF OMITTED] T1826.038

[GRAPHIC] [TIFF OMITTED] T1826.039

[GRAPHIC] [TIFF OMITTED] T1826.040

[GRAPHIC] [TIFF OMITTED] T1826.041

[GRAPHIC] [TIFF OMITTED] T1826.042

[GRAPHIC] [TIFF OMITTED] T1826.043

[GRAPHIC] [TIFF OMITTED] T1826.044

[GRAPHIC] [TIFF OMITTED] T1826.045

[GRAPHIC] [TIFF OMITTED] T1826.046

[GRAPHIC] [TIFF OMITTED] T1826.047

[GRAPHIC] [TIFF OMITTED] T1826.048

[GRAPHIC] [TIFF OMITTED] T1826.049

[GRAPHIC] [TIFF OMITTED] T1826.050

[GRAPHIC] [TIFF OMITTED] T1826.051

[GRAPHIC] [TIFF OMITTED] T1826.052

[GRAPHIC] [TIFF OMITTED] T1826.053

[GRAPHIC] [TIFF OMITTED] T1826.054

[GRAPHIC] [TIFF OMITTED] T1826.055

[GRAPHIC] [TIFF OMITTED] T1826.056

[GRAPHIC] [TIFF OMITTED] T1826.057

[GRAPHIC] [TIFF OMITTED] T1826.058

[GRAPHIC] [TIFF OMITTED] T1826.059

[GRAPHIC] [TIFF OMITTED] T1826.060

[GRAPHIC] [TIFF OMITTED] T1826.061

[GRAPHIC] [TIFF OMITTED] T1826.062

[GRAPHIC] [TIFF OMITTED] T1826.063

[GRAPHIC] [TIFF OMITTED] T1826.064

[GRAPHIC] [TIFF OMITTED] T1826.065

[GRAPHIC] [TIFF OMITTED] T1826.066

[GRAPHIC] [TIFF OMITTED] T1826.067

[GRAPHIC] [TIFF OMITTED] T1826.068

[GRAPHIC] [TIFF OMITTED] T1826.069

[GRAPHIC] [TIFF OMITTED] T1826.070

[GRAPHIC] [TIFF OMITTED] T1826.071

[GRAPHIC] [TIFF OMITTED] T1826.072

[GRAPHIC] [TIFF OMITTED] T1826.073

[GRAPHIC] [TIFF OMITTED] T1826.074

[GRAPHIC] [TIFF OMITTED] T1826.075

[GRAPHIC] [TIFF OMITTED] T1826.076

[GRAPHIC] [TIFF OMITTED] T1826.077

[GRAPHIC] [TIFF OMITTED] T1826.078

[GRAPHIC] [TIFF OMITTED] T1826.079

[GRAPHIC] [TIFF OMITTED] T1826.080

[GRAPHIC] [TIFF OMITTED] T1826.081

[GRAPHIC] [TIFF OMITTED] T1826.082

[GRAPHIC] [TIFF OMITTED] T1826.083

[GRAPHIC] [TIFF OMITTED] T1826.084

[GRAPHIC] [TIFF OMITTED] T1826.085

[GRAPHIC] [TIFF OMITTED] T1826.086

[GRAPHIC] [TIFF OMITTED] T1826.087

[GRAPHIC] [TIFF OMITTED] T1826.088

[GRAPHIC] [TIFF OMITTED] T1826.089

[GRAPHIC] [TIFF OMITTED] T1826.090

[GRAPHIC] [TIFF OMITTED] T1826.091

[GRAPHIC] [TIFF OMITTED] T1826.092

[GRAPHIC] [TIFF OMITTED] T1826.093

[GRAPHIC] [TIFF OMITTED] T1826.094

[GRAPHIC] [TIFF OMITTED] T1826.095

[GRAPHIC] [TIFF OMITTED] T1826.096

[GRAPHIC] [TIFF OMITTED] T1826.097

[GRAPHIC] [TIFF OMITTED] T1826.098

[GRAPHIC] [TIFF OMITTED] T1826.099

[GRAPHIC] [TIFF OMITTED] T1826.100

[GRAPHIC] [TIFF OMITTED] T1826.101

[GRAPHIC] [TIFF OMITTED] T1826.102

[GRAPHIC] [TIFF OMITTED] T1826.103

[GRAPHIC] [TIFF OMITTED] T1826.104

[GRAPHIC] [TIFF OMITTED] T1826.105

[GRAPHIC] [TIFF OMITTED] T1826.106

[GRAPHIC] [TIFF OMITTED] T1826.107

[GRAPHIC] [TIFF OMITTED] T1826.108

[GRAPHIC] [TIFF OMITTED] T1826.109

[GRAPHIC] [TIFF OMITTED] T1826.110

[GRAPHIC] [TIFF OMITTED] T1826.111

[GRAPHIC] [TIFF OMITTED] T1826.112

[GRAPHIC] [TIFF OMITTED] T1826.113

[GRAPHIC] [TIFF OMITTED] T1826.114

[GRAPHIC] [TIFF OMITTED] T1826.115

[GRAPHIC] [TIFF OMITTED] T1826.116

[GRAPHIC] [TIFF OMITTED] T1826.117

[GRAPHIC] [TIFF OMITTED] T1826.118

[GRAPHIC] [TIFF OMITTED] T1826.119

[GRAPHIC] [TIFF OMITTED] T1826.120

[GRAPHIC] [TIFF OMITTED] T1826.121

[GRAPHIC] [TIFF OMITTED] T1826.122

[GRAPHIC] [TIFF OMITTED] T1826.123

[GRAPHIC] [TIFF OMITTED] T1826.124

[GRAPHIC] [TIFF OMITTED] T1826.125

[GRAPHIC] [TIFF OMITTED] T1826.126

[GRAPHIC] [TIFF OMITTED] T1826.127

[GRAPHIC] [TIFF OMITTED] T1826.128

[GRAPHIC] [TIFF OMITTED] T1826.129

[GRAPHIC] [TIFF OMITTED] T1826.130

[GRAPHIC] [TIFF OMITTED] T1826.131

[GRAPHIC] [TIFF OMITTED] T1826.132

[GRAPHIC] [TIFF OMITTED] T1826.133

[GRAPHIC] [TIFF OMITTED] T1826.134

[GRAPHIC] [TIFF OMITTED] T1826.135

[GRAPHIC] [TIFF OMITTED] T1826.136

[GRAPHIC] [TIFF OMITTED] T1826.137

[GRAPHIC] [TIFF OMITTED] T1826.138

[GRAPHIC] [TIFF OMITTED] T1826.139

[GRAPHIC] [TIFF OMITTED] T1826.140

[GRAPHIC] [TIFF OMITTED] T1826.141

[GRAPHIC] [TIFF OMITTED] T1826.142

[GRAPHIC] [TIFF OMITTED] T1826.143

[GRAPHIC] [TIFF OMITTED] T1826.144

[GRAPHIC] [TIFF OMITTED] T1826.145

[GRAPHIC] [TIFF OMITTED] T1826.146

[GRAPHIC] [TIFF OMITTED] T1826.147

[GRAPHIC] [TIFF OMITTED] T1826.148

[GRAPHIC] [TIFF OMITTED] T1826.149

[GRAPHIC] [TIFF OMITTED] T1826.150

[GRAPHIC] [TIFF OMITTED] T1826.151

[GRAPHIC] [TIFF OMITTED] T1826.152

[GRAPHIC] [TIFF OMITTED] T1826.153

[GRAPHIC] [TIFF OMITTED] T1826.154

[GRAPHIC] [TIFF OMITTED] T1826.155

[GRAPHIC] [TIFF OMITTED] T1826.156

[GRAPHIC] [TIFF OMITTED] T1826.157

[GRAPHIC] [TIFF OMITTED] T1826.158

[GRAPHIC] [TIFF OMITTED] T1826.159

[GRAPHIC] [TIFF OMITTED] T1826.160

[GRAPHIC] [TIFF OMITTED] T1826.161

[GRAPHIC] [TIFF OMITTED] T1826.162

[GRAPHIC] [TIFF OMITTED] T1826.163

[GRAPHIC] [TIFF OMITTED] T1826.164

[GRAPHIC] [TIFF OMITTED] T1826.165

[GRAPHIC] [TIFF OMITTED] T1826.166

[GRAPHIC] [TIFF OMITTED] T1826.167

[GRAPHIC] [TIFF OMITTED] T1826.168

[GRAPHIC] [TIFF OMITTED] T1826.169

[GRAPHIC] [TIFF OMITTED] T1826.170

[GRAPHIC] [TIFF OMITTED] T1826.171

[GRAPHIC] [TIFF OMITTED] T1826.172

[GRAPHIC] [TIFF OMITTED] T1826.173

[GRAPHIC] [TIFF OMITTED] T1826.174

[GRAPHIC] [TIFF OMITTED] T1826.175

[GRAPHIC] [TIFF OMITTED] T1826.176

[GRAPHIC] [TIFF OMITTED] T1826.177

[GRAPHIC] [TIFF OMITTED] T1826.178

[GRAPHIC] [TIFF OMITTED] T1826.179

[GRAPHIC] [TIFF OMITTED] T1826.180

[GRAPHIC] [TIFF OMITTED] T1826.181

[GRAPHIC] [TIFF OMITTED] T1826.182

[GRAPHIC] [TIFF OMITTED] T1826.183

[GRAPHIC] [TIFF OMITTED] T1826.184

[GRAPHIC] [TIFF OMITTED] T1826.185

                                 <all>

</pre></body></html>
